<html>
<title> - UNDERPAID TEACHERS AND CRUMBLING SCHOOLS: HOW UNDERFUNDING PUBLIC EDUCATION SHORTCHANGES AMERICA'S STUDENTS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                         UNDERPAID TEACHERS AND
                           CRUMBLING SCHOOLS:
                        HOW UNDERFUNDING PUBLIC
                         EDUCATION SHORTCHANGES
                           AMERICA'S STUDENTS

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON EDUCATION
                               AND LABOR
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, FEBRUARY 12, 2019

                               __________

                            Serial No. 116-3

                               __________

      Printed for the use of the Committee on Education and Labor
      
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]     
      


           Available via the World Wide Web: www.govinfo.gov
                                   or
              Committee address: https://edlabor.house.gov
              
              
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-269 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e99986a98a9c9a9d818c8599c78a8684c7">[email&#160;protected]</a>                      
              
              
              
              
              
                    COMMITTEE ON EDUCATION AND LABOR

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

Susan A. Davis, California           Virginia Foxx, North Carolina,
Raul M. Grijalva, Arizona            Ranking Member
Joe Courtney, Connecticut            David P. Roe, Tennessee
Marcia L. Fudge, Ohio                Glenn Thompson, Pennsylvania
Gregorio Kilili Camacho Sablan,      Tim Walberg, Michigan
  Northern Mariana Islands           Brett Guthrie, Kentucky
Frederica S. Wilson, Florida         Bradley Byrne, Alabama
Suzanne Bonamici, Oregon             Glenn Grothman, Wisconsin
Mark Takano, California              Elise M. Stefanik, New York
Alma S. Adams, North Carolina        Rick W. Allen, Georgia
Mark DeSaulnier, California          Francis Rooney, Florida
Donald Norcross, New Jersey          Lloyd Smucker, Pennsylvania
Pramila Jayapal, Washington          Jim Banks, Indiana
Joseph D. Morelle, New York          Mark Walker, North Carolina
Susan Wild, Pennsylvania             James Comer, Kentucky
Josh Harder, California              Ben Cline, Virginia
Lucy McBath, Georgia                 Russ Fulcher, Idaho
Kim Schrier, Washington              Van Taylor, Texas
Lauren Underwood, Illinois           Steve Watkins, Kansas
Jahana Hayes, Connecticut            Ron Wright, Texas
Donna E. Shalala, Florida            Daniel Meuser, Pennsylvania
Andy Levin, Michigan*                William R. Timmons, IV, South 
Ilhan Omar, Minnesota                    Carolina
David J. Trone, Maryland             Dusty Johnson, South Dakota
Haley M. Stevens, Michigan
Susie Lee, Nevada
Lori Trahan, Massachusetts
Joaquin Castro, Texas
* Vice-Chair

                   Veronique Pluviose, Staff Director
                 Brandon Renz, Minority Staff Director
                                 ------                                
                           
                           
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 12, 2019................................     1

Statement of Members:
    Scott, Hon. Robert C. ``Bobby'', Chairman, Committee on 
      Education and Labor........................................     1
        Prepared statement of....................................   144
    Foxx, Hon. Virginia, Ranking Member, Committee on Education 
      and Labor..................................................   146
        Prepared statement of....................................   147

Statement of Witnesses:
    Contreras, Ms. Sharon L., Superintendent, Guilford County 
      Schools....................................................   151
        Prepared statement of....................................   152
    King, Ms. Anna, Board Member, National PTA, Past President, 
      Oklahoma PTA...............................................   157
        Prepared statement of....................................   159
    Scafidi, Dr. Ben, Professor of Economics and Director, 
      Education Economics Center, Kennesaw State University......   164
        Prepared statement of....................................   166
    Weingarten, Ms. Randi, President, American Federation of 
      Teachers...................................................   170
        Prepared statement of....................................   172

Additional Submissions:
    Dr. Scafidi:
        Letter dated February 26, 2019 to Chairman Scott.........   226
    Chairman Scott:
        Letter dated January 2, 2019 from Rebuild America's 
          Schools................................................     5
        Report: No Time to Lose..................................     6
        Report: How Money Matters for Schools....................    34
        Report: A Punishing Decade for School Funding............    63
        Report: the Case for Federal Funding for School 
          Infrastructure.........................................    80
        Report: State of Our Schools.............................    86
        Report: Fixing Chronic Disinvestment in K-12 Schools.....   133
        Coalition for Healthier Schools, Support: Rebuild 
          America's Schools Act, H.R. 865........................   228
        Release: Build America's School Infrastructure Coalition 
          (BASIC)................................................   230
        Letter dated January 31, 2019, from the National 
          Association of Federally Impacted Schools..............   232
        Letter dated January 31, 2019, from North American 
          Concrete Alliance......................................   233
        Release: AFT's Randi Weingarten on the Rebuild America's 
          Schools Act............................................   234
        Release: AFSCME Applauds Congressional Proposal to Invest 
          $100 Billion in America's Public Schools...............   235
        Letter of Support for ``Rebuild America's Schools Act'' 
          (RASA) - H.R. 865......................................   236
    Ms. Weingarten:
        Article: Dennis Smith: words of caution from experience 
          in failed charter system (Gazette Opinion).............   237
        Article: Evidence shows collective bargaining-especially 
          with the ability to strike.............................   240
        Letter from Portland Public Schools, Lincoln High School.   243
        Article: We can expect more from teachers when we pay 
          them like pros: Bloomberg and Weingarten...............   246
    Questions submitted for the record by:
        Bonamici, Hon. Suzanne, a Representative in Congress from 
          the State of Oregon 



        Chairman Scott 




    Responses to questions submitted for the record:
        Ms. Contreras............................................   254
        Ms. King.................................................   256
        Dr. Scafidi..............................................   258

 
                    UNDERPAID TEACHERS AND CRUMBLING
                    SCHOOLS: HOW UNDERFUNDING PUBLIC
               EDUCATION SHORTCHANGES AMERICA'S STUDENTS

                              ----------                              


                       Tuesday, February 12, 2019

                       House of Representatives,

                   Committee on Education and Labor,

                            Washington, DC.

                              ----------                              

    The committee met, pursuant to notice, at 10:17 a.m., in 
room 2175, Rayburn House Office Building, Hon. Robert C. 
``Bobby'' Scott
    (chairman of the committee) presiding.
    Present: Representatives Scott, Grijalva, Courtney, Fudge, 
Sablan, Takano, Adams, DeSaulnier, Jayapal, Morelle, Wild, 
Harder, McBath, Schrier, Underwood, Hayes, Shalala, Omar, Lee, 
Castro, Foxx, Roe, Thompson, Guthrie, Grothman, Stefanik, 
Allen, Banks, Walker, Comer, Cline, Fulcher, Taylor, Watkins, 
Wright, Meuser, Timmons, and Johnson.
    Also present: Representative Horn.
    Staff present: Tylease Alli, Chief Clerk; Jacque Chevalier 
Mosely, Director of Education Policy; Mishawn Freeman, Staff 
Assistant; Christian Haines, General Counsel, Education; Ariel 
Jona, Staff Assistant; Stephanie Lalle, Deputy Communications 
Director; Andre Lindsay, Staff Assistant; Richard Miller, 
Director of Labor Policy; Max Moore, Office Aide; Veronique 
Pluviose, Staff Director; Loredana Valtierra, Education Policy 
Fellow; Banyon Vassar, Deputy Director of Information 
Technology; Lakeisha Steele, Professional Staff; Cyrus Artz, 
Minority Parliamentarian; Marty Boughton, Minority Press 
Secretary; Courtney Butcher, Minority Coalitions and Members 
Services Coordinator; Blake Johnson, Minority Staff Assistant; 
Amy Raaf Jones, Minority Director of Education and Human 
Resources Policy; Hannah Matesic, Minority Legislative 
Operations Manager; Kelley McNabb, Minority Communications 
Director; Jake Middlebrooks, Minority Professional Staff 
Member; Brandon Renz, Minority Staff Director; Alex Ricci, 
Minority Professional Staff Member; Mandy Schaumburg, Minority 
Chief Counsel and Deputy Director of Education Policy; Meredith 
Schellin, Minority Deputy Press Secretary and Digital Advisor; 
and Brad Thomas, Minority Senior Education Policy Advisor.
    Chairman Scott. Good morning. A quorum being present, the 
Education and Labor Committee will come to order.
    I would like to welcome everyone here for this legislative 
hearing on Underpaid Teachers and Crumbling Schools: How 
Underfunding Public Education Shortchanges America's Students.
    Pursuant to committee rule 7(c), opening statements are 
limited to the Chair and Ranking Member. This allows us to hear 
from our witnesses sooner and provides members an adequate time 
to ask questions. And I now recognize myself for the purpose of 
making an opening statement.
    This morning, we are here to discuss how chronically 
underfunding public education is affecting students, parents, 
teachers, and communities. This is a discussion our 
constituents are eager for us to have and a challenge the 
American people were calling us to solve. In Oklahoma, West 
Virginia, Virginia, Arizona, Los Angeles, and many other cities 
and States in between, voters are demanding greater support for 
public education.
    In a time of extreme polarization, support for public 
education is a rare bridge across our political and cultural 
divisions. A poll conducted after the 2018 midterm elections, 
in that poll, an overwhelming majority of Americans, both 
Democrats and Republicans, said increasing K-12 funding is a, 
quote, extremely important priority for the 116th Congress.
    Widespread support for public education makes our 
longstanding unfortunate tradition of failing to prioritize 
public education both confounding and frustrating. You can look 
no further than Title IA of the Elementary and Secondary 
Education Act, the largest grant program in K-12. Title IA 
supports public schools with large numbers of students living 
in poverty. In the 2017-2018 school year, Congress gave schools 
less than a third of the full authorization amount for this 
basic grant program.
    The Individuals with Disabilities Education Act, known as 
IDEA, is another example. IDEA protects students with 
disabilities in making sure they can receive a free and 
appropriate public education in the least restrictive 
environment. To help achieve this goal, it authorizes grants to 
offset extra costs associated with supporting students with 
disabilities. IDEA has not been fully funded at any point in 
its 44-year history. In fact, funding levels for IDEA have 
never reached even half of the authorized levels.
    And despite the evidence linking well-resourced facilities, 
well-supported teachers, and healthy buildings to better 
economic and life outcomes, the Federal Government dedicates no 
money to public school infrastructure improvements. The lack of 
Federal support--the lack of Federal support has exacerbated 
the issues caused by lack of commitment to robust public 
education funding at the state level.
    According to the Center on Budget and Policy Priorities 
adjusted for inflation, 29 states spent less per student in 
2015 than they had in 2008 before the Great Recession. In 17 of 
those states--in 17 of those states, funding per pupil was cut 
at least 10 percent.
    Today, despite the long and growing list of school 
buildings' failures that have endangered students and 
educators, 12 states contributed no money to support school 
facilities, and an additional 13 states cover between 1 and 9 
percent of school facility costs.
    A combination of chronic Federal and State underfunding in 
public education has left many schools at a literal breaking 
point. According to one study published in 2016, public K-12 
facilities are, on average, underfunded about $46 billion 
dollars every year compared to building industry and best 
practice standards.
    In 2014, the Department of Education estimated that it 
would cost $197 billion dollars to bring all schools into good 
condition. This problem is not limited to physical 
infrastructure. As technology becomes increasingly central to 
providing quality education, the lack of funding for basic 
school upgrades is for schools to put off needed investments in 
digital infrastructure.
    In a 2017 Education Super Highway report, that report found 
that more than 19,000 schools serving nearly a quarter of 
public school students are without the minimum connectivity 
necessary for digital learning.
    Now, our nation primarily funds public education using 
property taxes, so the erosion of Federal and State support has 
had a particularly harmful effect on low-income districts where 
revenue is lacking and where schools are, therefore, 
chronically underfunded. And this underfunding has 
consequences.
    For example, in September 2018, dozens of New Jersey 
schools closed for weeks because of mold. Baltimore closed 
schools the same month during a heat wave because many schools 
did not have air-conditioning. And notably, in Baltimore, only 
3 percent of the schools are less than 35 years old.
    Five years after the discovery of lead in--lead 
contamination in the water, schools in Flint, Michigan, finally 
have a water filtration system, incredibly only because of a 
private donation. So 2 weeks ago, I joined Congressman Norcross 
and Senator Jack Reed, along with 180 Members of Congress, to 
introduce the Rebuild America's Schools Act. This bill would 
create a $70 billion grant program and a $30 billion tax credit 
bond program targeted at improving the fiscal and digital 
infrastructure at high-poverty schools. In doing so, it would 
create roughly $1.9 million good paying jobs. In fact, Rebuild 
America's Schools Act would actually create more jobs than the 
recent $1.9 trillion Republican tax bill at approximately 5 
percent of the cost.
    At the start of his Presidency and again in the State of 
the Union last week, President Trump called on a massive 
infrastructure package to rebuild America. School 
infrastructure must be part of that package when we consider 
it. And this should be a bipartisan effort. An overwhelming 
majority of Americans understand the correlation between 
consistent nationwide failure to support public schools and 
inequality in educational opportunity.
    We can do better. The total U.S. spending on education 
accounts for 2 percent of the Federal budget. That is less than 
most other developed nations. It will take a long-term 
commitment to public schools in order to see the consistent 
results we expect. We must be willing to make that commitment.
    And I want to close by recognizing the burden we continue 
to place on America's educators. While crumbling schools are a 
visible risk to students, the effect of chronic underfunding on 
our teachers is equally, if not more, concerning.
    Accounting for inflation, teacher pay actually fell $30 a 
week from 1996 to 2015. Public school teachers already earn 
just 77 percent of what other college graduates with similar 
work experience earn in weekly wages. Teachers who live at the 
intersection of declining salaries and undersourced schools 
continue to demonstrate their dedication to their students. And 
making matters worse, as an example of that they spend an 
average of $485 of their own money every year to buy classroom 
materials and supplies.
    If we cannot attract and retain the most talented, 
passionate teachers in the classroom, we will fail to fulfill 
our promise to students of their quality education.
    And so without objection, I would like to enter into the 
record the following documents: First, a list of organizations 
that endorse the Rebuild America's Schools Act and their 
endorsing statements, and the following reports: One by the 
National Conference of State Legislatures, No Time to Lose: How 
to Build a World-Class Education System State By State; the 
Learning Policy Institute, How Money Matters to Schools; by the 
Center on Budget and Policy Priorities, a Punishing Decade for 
School Funding; by the Center for American Progress, the Case 
for Federal Funding for School Infrastructure; one by the 21st 
Century School, U.S. Green Building Council, and the National 
Council on School Facilities, the State of our Schools: 
America's K-12 Facilities; and finally, Fixing Chronic 
Disinvestment in K-12 Schools, the Center for American 
Progress. I ask all those documents be placed in the record.
    Without objection, so ordered.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Scott. I look forward to discussion.
    And now I recognize our distinguished ranking member, Dr. 
Foxx, for her opening statement.
    [The statement of Chairman Scott follows:]

    Prepared Statement of Hon. Robert C. ``Bobby'' Scott, Chairman, 
                    Committee on Education and Labor

    This hearing is now called to order. This morning, we are here to 
discuss how chronic underfunding of public education is affecting 
students, parents, teachers, and communities.
    This is a discussion our constituents are eager for us to have, and 
a challenge the American people are calling on us to solve. In 
Oklahoma, West Virginia, Virginia, Arizona, Los Angeles, and many 
cities and states in between, voters are demanding greater support for 
public education.
    In a time of extreme polarization, support for public education is 
a rare bridge across our political and cultural divisions. In a poll 
conducted after the 2018 midterm elections, the overwhelming majority 
of Americans, both Democrats and Republicans, said increasing K-12 
funding is an ``extremely important priority'' for the 116th Congress.
    The widespread support for public education makes our longstanding 
tradition of failing to prioritize public education both confounding 
and frustrating.
    Look no further than Title I of the Elementary and Secondary 
Education Act the largest grant program in K-12 education. Title I 
supports public schools with large concentrations and numbers of 
students living in poverty. In the 2017-2018 school year, Congress gave 
schools less than a third of the full authorization amount for the 
basic grant program.
    The Individuals with Disabilities Education Act, known as IDEA, is 
another example. IDEA protects the right of children with disabilities 
to receive a free, appropriate, public education in the least 
restrictive environment.
    To help achieve this goal, it authorizes grants to offset extra 
costs associated with supporting students with disabilities. IDEA has 
not been fully funded at any point in its 44-year history. In fact, 
funding for IDEA has never reached even half of the authorized levels.
    And despite the evidence linking well-resourced facilities, well-
supported teachers, and healthy buildings to better academic and life 
outcomes, the Federal Government dedicates no money to public school 
infrastructure improvements.
    The lack of Federal support has exacerbated the issues caused by a 
lack of commitment to robust public education funding at the State 
level.
    According to the Center on Budget and Policy Priorities, 29 states 
spent less per student in 2015 than they had in the 2008 school year, 
before the Great Recession. In 17 states, funding per student was cut 
by at least 10 percent.
    Today, despite the long and growing list of school building 
failures that have endangered students and educators, 12 states 
contribute no money to support school facilities, and 13 states cover 
between 1 percent and 9 percent of school facility costs.
    The combination of chronic Federal and State underfunding in public 
education has left many schools at a literal breaking point. According 
to a State of our Schools report published in 2016, public K-12 school 
facilities are on average underfunded by $46 billion every year 
compared to building industry and best-practice standards.
    In 2014, a Department of Education study estimated that it would 
cost $197 billion to bring all public schools into good condition.
    This problem is not limited to physical infrastructure. As 
technology becomes increasingly central to providing a quality 
education, the lack of funding for basic school upgrades has forced 
schools to put off needed investments in digital infrastructure.
    A 2017 ``Education Super Highway'' report found that more than 
19,000 schools serving more than
    11.6 million students, nearly a quarter of public school students, 
``are without the minimum connectivity necessary for digital 
learning.''
    In a nation that primarily funds public education using property 
taxes, the erosion of Federal and State support has had a particularly 
harmful impact on low income school districts, where schools are 
chronically underfunded, and the needs are the greatest.
    For example, in September 2018, dozens of New Jersey schools closed 
for weeks because of mold. Baltimore also closed schools the same month 
during a heatwave because many schools did not have air conditioning. 
Notably, only 3 percent of Baltimore schools are less than 35 years 
old.
    Five years after the discovery of lead contamination in the water, 
schools in Flint, Michigan finally have water filtration systems, but 
only because of a private donation.
    Two weeks ago, I joined Congressman Norcross and Senator Jack Reed, 
along with 180 Members of Congress, to introduce the Rebuild America's 
Schools Act.
    This bill would create a $70 billion grant program and $30 billion 
tax credit bond program targeted at improving the physical and digital 
infrastructure at high-poverty schools.
    In doing so, it would also create roughly 1.9 million good-paying 
jobs. In fact, the Rebuild America's Schools Act would create more jobs 
than the Republican tax bill, at just 5 percent of the cost.
    At the start of his presidency, and again in the State of the Union 
last week, President Trump called for a massive infrastructure package 
to rebuild America. School infrastructure must be part of any package 
we consider.
    This should be a bipartisan effort. An overwhelming majority of 
Americans understand the clear line between the consistent, nationwide 
failure to support public schools and its role in perpetuating 
inequality in education. Unfortunately, not everyone has drawn the same 
conclusion.
    Rather than understanding the achievement gap as the inevitable 
result of structural inequality and chronic underfunding of low-income 
schools, some attribute the achievement gap to the failure of 
individual parents, students, and educators.
    Rather than seeing the urgent need for a robust public education 
system, some see an opportunity to cut funding and expand the role of 
private schools and voucher programs.
    Others have also argued that our existing investment has not 
produced uniformly positive results and, therefore, it is time to 
divert funding into private options. But those individuals fail to 
acknowledge the larger community-based issues that contribute to 
student performance. Students succeed when they are surrounded by 
strong local economies, thriving businesses, successful human services 
programs.
    They need access to health care, adequate transportation, 
affordable housing, and nutritious food. As other developed nations 
have demonstrated, this support system is a critical component for 
students' success.
    Critics of public schools also ignore the chronic underfunding of 
education to date. Total U.S. spending on education accounts for 2 
percent of the Federal budget, which is less than many other developed 
countries.
    And supporters of funding cuts for public schools do not 
acknowledge the devastating impact that efforts to privatize public 
education have had on low-income communities.
    It will take a long-term commitment to public schools in order to 
see the consistent results we all expect. And we must be willing to 
make that commitment.
    I want to close by recognizing the burden we continue to place on 
America's educators. While crumbling school buildings are a visible 
risk to students, the effect of chronic underfunding on America's 
teachers is equally, if not more concerning.
    Accounting for inflation, teacher pay fell by $30 per week from 
1996 to 2015. Public school teachers earn just 77 percent of what other 
college graduates with similar work experience earn in weekly wages.
    Teachers who live at the intersection of declining salaries and 
under-resourced schools continue to demonstrate their dedication to 
their students. Teachers spend an average of $485 of their own money 
every year to buy classroom materials and supplies.
    If we cannot attract and keep talented and passionate teachers in 
the classroom, we will fail to provide students the promise of a 
quality education. That is simply not an option.
    I look forward to this discussion and I now recognize the Ranking 
Member, Dr. Foxx.
                                 ______
                                 
    Ms. Foxx. Thank you, Mr. Chairman.
    Teachers work hard on behalf of American students and 
families, and they deserve paychecks that reflect their 
tireless efforts. And all students deserve access to safe, 
clean, and healthy school facilities regardless of zip code. To 
dispute these two facts would make anyone out of touch with 
reality.
    Over the past year, there has been a steady stream of well-
publicized strikes across the country. Teachers' unions in West 
Virginia, Oklahoma, Colorado, Arizona, Los Angeles, and most 
recently Denver, all called attention to these matters. So 
given the recent uptick in teachers union strikes, a reasonable 
person would assume that State and local governments are 
cutting budgets and disinvesting in public schools. Quite the 
contrary.
    In fact, most states have actually increased public school 
spending, but instead of increasing salaries, improving 
structures, and investing in classroom equipment, many school 
districts have ended up pouring taxpayer funds into 
administrative bloat that leaves students and teachers high and 
dry.
    It has been said that the definition of insanity is doing 
the same thing over and over again and expecting different 
results. When it comes to these two issues, teacher pay and 
school construction, Democrats have not had a new idea in 
decades.
    Any time a challenge arises, Democrats look to refill the 
same prescription of more money, more bureaucracy, and more 
power punted to distant figures in Washington. Is the answer 
more control from Washington? Well, having just emerged from a 
government shutdown, I think most Americans would agree that 
the less politicians can control and leverage, the better.
    Teachers and students deserve more than the same tired 
fights over money. We need to find new and innovative 
approaches to public school success. Republicans still and will 
always believe that the best solutions for serving children 
emerge from the communities in which they live and grow.
    I have been fortunate to have had the opportunity to serve 
my community as a member of the local school board, so I know 
firsthand how complicated it can be trying to make resources, 
regardless of whether they are local or Federal resources 
coming from taxpayers, actually serves students in a way they 
can recognize. That is why we need to engage thoughtfully and 
hopefully in new initiatives to make education a central focus 
in community development.
    Community development can come in all shapes and sizes, and 
one of the most interesting new concepts to emerge has been 
opportunity zones. Opportunity zones are areas of the country 
that look very much like the community in which I was raised 
and which I proudly represent today. These are communities 
where the poverty rate exceeds 30 percent and local industry 
has struggled to rebound from the 2008 recession. Opportunity 
zones, which are home to over 50 million Americans, will spur 
private industry and make long-term investments in these 
communities.
    This bipartisan community development initiative was 
initially championed by Senators Tim Scott and Cory Booker, and 
in 2017, was signed into law by President Trump as a provision 
of the Republican Tax Cuts & Jobs Act.
    The provisions in this law have the potential to unleash 
trillions of dollars in private capital for long-term 
investment in impoverished parts of the country. Time will tell 
if opportunity zones and other new initiatives will finally 
help us solve the problems of low teacher pay and poor school 
facilities, but time has already told us that higher price tags 
and more bureaucracy in Washington don't deliver higher 
results.
    Today we are going to be listening for fresh ideas and 
signs of innovation as we pursue our shared goals of better 
environments for students and teachers.
    Thank you, Mr. Chairman. I yield back.
    [The statement of Mrs. Foxx follows:]

Prepared Statement of Hon. Virginia Foxx, Ranking Member, Committee on 
                          Education and Labor

    Teachers work hard on behalf of American students and families, and 
they deserve paychecks that reflect their tireless efforts. And all 
students deserve access to safe, clean, and healthy school facilities, 
regardless of zip code. To dispute these two facts would make anyone 
out of touch with reality.
    Over the past year, there's been a steady stream of well-publicized 
strikes across the country. Teachers unions in West Virginia, Oklahoma, 
Colorado, Arizona, Los Angeles, and most recently Denver, all called 
attention to these matters.
    So, given the recent uptick in teachers union strikes, a reasonable 
person would assume that State and local governments are cutting 
budgets and disinvesting in public schools. Quite the contrary. In 
fact, most states have actually increased public school spending. But 
instead of increasing salaries, improving structures and investing in 
classroom equipment, many school districts have ended up pouring 
taxpayer funds into administrative bloat that leaves students and 
teachers high and dry.
    It's been said that the definition of insanity is doing the same 
thing over and over again and expecting different results. When it 
comes to these two issues--teacher pay and school construction--
Democrats have not had a new idea in decades. Any time a challenge 
arises, Democrats look to refill the same prescription of more money, 
more bureaucracy, and more power punted to distant figures in 
Washington.
    Is the answer more control from Washington? Well, having just 
emerged from a government shutdown, I think most Americans would agree 
that the less politicians can control and leverage, the better.
    Teachers and students deserve more than the same tired fights over 
money. We need to find new and innovative approaches to public school 
success.
    Republicans still, and will always believe, that the best solutions 
for serving children emerge from the communities in which they live and 
grow. I've been fortunate to have had the opportunity to serve my 
community as a member of the local school board. So I know firsthand 
how complicated it can be trying to make resources, regardless of 
whether they're local or Federal resources, coming from taxpayers, 
actually serve students in a way they can recognize.
    That's why we need to engage thoughtfully and hopefully in new 
initiatives to make education a central focus in community development.
    Community development can come in all shapes and sizes, and one of 
the most interesting new concepts to emerge has been ``Opportunity 
Zones.'' Opportunity Zones are areas of the country that look very much 
like the community in which I was raised and which I proudly represent 
today. These are communities where the poverty rate exceeds 30 percent 
and local industry has struggled to rebound from the 2008 recession. 
Opportunity Zones, which are home to over 50 million Americans, will 
spur private industry to make long-term investments in these 
communities.
    This bipartisan community development initiative was initially 
championed by Senators Tim Scott and Cory Booker, and in 2017 was 
signed into law by President Trump as a provision of the Republican Tax 
Cuts and Jobs Act. The provisions in this law have the potential to 
unleash trillions of dollars in private capital for long-term 
investments in impoverished parts of the country.
    Time will tell if Opportunity Zones and other new initiatives will 
finally help us solve the problems of low teacher pay and poor school 
facilities. But time has already told us that higher price tags, and 
more bureaucracy in Washington, don't deliver higher results. Today, we 
are going to be listening for fresh ideas and signs of innovation as we 
pursue our shared goal of better environments for students and 
teachers.
                                 ______
                                 
    Chairman Scott. Thank you, Dr. Foxx, and I wanted to thank 
you for your comments. I was especially delighted to hear your 
compliment that we have been consistent in our refrain that we 
need more Federal funding for education, and we haven't backed 
off on that. And I want to thank you for that compliment.
    Without objection, all other members who wish to insert 
written Statements can do so by notifying the committee clerk 
within 7 days.
    In introducing the witnesses, I note that the first witness 
is from North Carolina, and two members have insisted on the 
privilege of introducing her. So I will first yield to the 
gentleman from North Carolina, Mr. Walker.
    Mr. Walker. Thank you, Mr. Chairman.
    I am pleased to introduce Dr. Sharon Contreras to our 
committee today. Dr. Contreras is the Superintendent for the 
Guilford County Schools in my district in North Carolina. We 
have enjoyed working together on several occasions since she 
first joined the Guilford County School District in 2016. She 
has an extensive career in education, since she first began her 
career as a high school English teacher in Rockford, Illinois. 
Dr. Contreras has a real heart to serve the students of 
Guilford County. She is a woman of faith, if I might add. We 
don't always agree with exact approach, but most importantly, 
she is my friend.
    Dr. Contreras has accomplished all of this while being 
hearing impaired. So as we talk to her today or ask questions, 
just make sure that she has eye contact and she will deliver in 
a very accomplished manner today.
    I would now like to yield to the gentlewoman from North 
Carolina, Ms. Adams, to say a few words about Dr. Contreras.
    Ms. Adams. Thank you. I thank my friend for yielding.
    As some of you may know, before a change in the district 
lines in our State, for 31 years, I represented parts of 
Guilford County and Greensboro, and began my service in public 
office as the first African American woman elected to the 
school board, so I do have some sense of the Guilford County 
schools.
    Dr. Contreras is the first woman and the first Latina 
superintendent of Guilford County schools. Guilford County has 
126 schools and serves more than 71,000 students, 40 percent 
Black, 30 percent White, 16 percent Latino, 6 percent Asian. 
Seven percent of Guilford County school students have 
disabilities, and 64 percent of its students are low income. 
And under Dr. Contreras' leadership, the high school graduation 
rate has reached 89.8 percent, the highest in Guilford County 
history.
    I just want to mention as a personal note that Dr. 
Contreras is a woman of vision. She spearheaded the first 
assistant principal's leadership academy through the new 
leaders program, and my daughter is a member of that academy, 
and I want to thank her for not only her leadership.
    Dr. Contreras, welcome to the committee. And I thank the 
gentleman from North Carolina for allowing me a brief comment 
in this introduction, and I yield back to him.
    Mr. Walker. I thank the gentlelady for yielding and 
refraining from too much shade. And with that, I yield back to 
the chairman.
    Chairman Scott. Thank you.
    Our next witness is also represented by a person with us 
today. I would like to yield to the gentlelady from Oklahoma, 
who is not a member of the committee, but without objection, 
will be recognized for purposes of an introduction.
    Ms. Horn. Thank you so much, Chairman Scott, for the 
opportunity to address the committee and the privilege of 
introducing Anna King.
    I am honored to introduce a proud Oklahoman with a strong 
history of advocating for public education. Anna has dedicated 
over 20 years of her life to not only improving educational 
quality for her children and grandchildren through local PTAs, 
but also to advocating for every single child across the 
country through her current role as the Vice-President of 
Membership of the National Parent Teacher Association, which 
has over 3.5 million members nationwide.
    I have had the privilege, as she resides in my district, of 
watching and working with Anna and seeing her passionate 
support for public schools and students. Anna firmly believes 
that education is the cornerstone of opportunity in this 
country. The best investment that we can make in America's 
future is an investment in the minds of our youth. And as our 
nation grows and diversifies, our schools must have the tools 
and resources to keep pace, something which I know Ms. King 
will speak about.
    Across this country, including my home state, teachers are 
far too often forced to work second and multiple jobs because 
their salary simply isn't enough to pay the bills, and parents 
and advocates like Anna are speaking up because their kids 
deserve better.
    In 2018, we have some experience with this, as you 
mentioned, Chairman Scott, Oklahoma saw more than 50,000 
individuals, educators, parents, and community members walk out 
in support of our public schoolteachers, our students, and our 
communities. Simply put, quality public education is a 
cornerstone of our communities and a strong economy, and if we 
want communities to thrive, we can no longer ignore the 
challenges our schools face.
    So thank you, Anna, for your passion, your advocacy, and 
for wanting the best for all kids regardless of their zip code. 
The thousands of future leaders in Oklahoma's 5th Congressional 
District and children across the nation will benefit from your 
advocacy.
    Thank you again, Chairman, for allowing me to speak, and 
thank you to the members of the committee, and I look forward 
to your testimony.
    Chairman Scott. Thank you very much.
    Next witness is Dr. Benjamin Scafidi, who is a Professor of 
Economics and Director of Educational Economics--the Director 
of the Education Economic Center at Kennesaw State University 
in Georgia. He has a Ph.D. in Economics from the University of 
Virginia and his B.A. from Notre Dame. His research is focused 
on urban policy and education, and he was previously an 
Education Policy Advisor to Governor Sonny Perdue of Georgia.
    Randi Weingarten is president of the 1.7-million member 
American Federation of Teachers, AFL-CIO. As president, she has 
overseen the development of AFT's quality education agenda, 
which advocates for reforms grounded in evidence, equities, 
scalability, and sustainability. She has used her platform to 
advocate for more State and Federal investment in public 
education, as noted by AFT's recent report, A Decade of 
Neglect: Public Education Funding in the Aftermath of the Great 
Recession. She holds degrees from Cornell University's School 
of Industrial and Labor Relations and the Cardozo School of 
Law.
    We appreciate all the witnesses for being with us today and 
look forward to your testimony, and remind you that we have--
your full statements are available and will appear in full in 
the record pursuant to committee rule 7(d) and committee 
practice. Each of you is asked to limit your presentation to a 
5-minute summary of your written statement. We remind the 
witnesses that pursuant to Title 18 U.S. Code, Section 101, it 
is illegal to knowingly and willfully falsify any statement, 
representation, writing, document, or material fact to Congress 
or otherwise conceal or cover up a material fact.
    Before you begin your testimony, please remember to press 
the button on the microphone in front of you so that it will 
turn on and members can hear you. As you speak, the light in 
front of you will turn green. After 4 minutes, it will turn to 
yellow, indicating 1 minute remaining, and when the light turns 
red, your 5 minutes have expired, and we would ask you to 
please wrap up your testimony.
    We will let the entire panel make presentations before we 
move to member questions. When answering a question, please 
remember, again, to turn your microphone on.
    We will first recognize Dr. Contreras.

  STATEMENT OF SHARON L. CONTRERAS, SUPERINTENDENT, GUILFORD 
                         COUNTY SCHOOLS

    Ms. Contreras. Good morning, Mr. Chairman, Ranking Member 
Foxx, Congressman Walker, Congresswoman Adams, and members of 
the committee. I am Sharon Contreras, Superintendent of 
Guilford County schools in Greensboro, North Carolina. With me 
today are my colleagues, Angie Henry, the chief financial 
officer; and Julius Monk, the executive director of facilities. 
Thank you for inviting me to speak today.
    As an educator and administrator of nearly 30 years who has 
worked in public schools in several states, I have seen 
firsthand how good facilities can create healthy, safe, and 
innovative spaces that truly support 21st century learning. I 
have also seen firsthand how inadequate facilities, broken HVAC 
systems, and dilapidated buildings negatively affect learning. 
The substantial obstacles we face in bringing America's schools 
up to par date back generations and are found in every state, 
particularly in our urban and rural areas, which serve the 
highest concentrations of children and adults living in 
poverty.
    Guilford County schools serves more than 73,000 PreK-12 
students in 126 schools in a countywide district that spans 
about 650 square miles and encompasses urban, suburban, and 
rural areas. Our students come to our doorsteps eager to learn. 
Unfortunately, our doors don't always open to facilities 
designed to meet the needs of students in the postindustrial 
era.
    Our average school building is about 50 years old and was 
designed for an industrial era that no longer exists. We have 
469 mobile classrooms, 58 percent of which are more than 20 
years old. We have five mobile units that date to 1972. We had 
to move one last year. It was so old it broke apart while we 
were transporting it, blocking traffic for hours. Our 
maintenance staff responds to more than 30,000 work orders 
annually for failing HVAC units, plumbing systems, leaky roofs, 
and other basic building needs. Schools routinely use buckets 
and trash cans to catch the water during heavy rains. Water 
seepage and flooding is also common, especially since our 
county has, during just the past year, experienced a 
devastating tornado, two hurricanes, an unusual 12-inch 
snowfall, and a record 64 inches of rain.
    A recent comprehensive facility study indicated we need 
more than $1.5 billion in capital investment to renovate and 
upgrade current facilities and build new schools. According to 
the study, more than 45 percent of our schools were rated as 
unsatisfactory or in poor condition. Many of the schools rated 
as unsatisfactory or poor are also Title I schools educating 
the poorest and most vulnerable students. Ten schools were in 
such bad shape that they were recommended for possible closure.
    The deferred maintenance backlog in our district was pegged 
at $800 million, while renewal funding for preventative 
maintenance and reasonable replacement cycles was estimated at 
$6.9 billion over a 30-year period. Our current maintenance 
budget, however, is only around $6 million a year.
    While the physical condition of our buildings is troubling, 
our greatest concern is that most of our schools do not meet 
the baseline standards required to adequately support 21st 
century learning, with the average school rated as poor in 
terms of educational suitability on the same recent facility 
study. I could give many more examples from school districts in 
North Carolina and some are outlined in my written testimony.
    Our crumbling school infrastructure requires national 
leadership and Federal funding to assist state and local 
efforts to upgrade our schools for our students. I support 
Chairman Scott's introduction of the Rebuild America's Schools 
Act of 2019, and encourage this committee and Congress to come 
together and prioritize investments in our school buildings and 
our students. Transforming learning and life outcomes for 
children and young people is not a partisan issue. It is the 
issue our nation must address if we want future generations to 
prosper, if we want our children and grandchildren to live 
fulfilling lives, and if we intend to preserve our great 
democracy.
    Again, thank you for the opportunity to speak to you today 
about the infrastructure needs of our nation's public schools. 
I look forward to any questions you may have.
    [The statement of Ms. Contreras follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Scott. Thank you very much.
    Ms. King.

   STATEMENT OF ANNA KING, BOARD MEMBER, NATIONAL PTA, PAST 
                    PRESIDENT, OKLAHOMA PTA

    Ms. King. Chairman Scott, Ranking Member Foxx, and members 
of the committee, thank you for inviting me to testify today on 
this panel to share the perspectives of parents and families on 
a lack of investments and resources for our nation's students, 
teachers, and schools. I am speaking on behalf of the National 
PTA, the Nation's oldest and largest child advocacy association 
with members in all 50 states, D.C., Virgin Islands, Puerto 
Rico, and Europe.
    Since 1897, National PTA has been a strong advocate for all 
families to effectively change their child's education. Long-
term success of our nation depends on robust and equitable 
public investments in our education system. Public education is 
a major vehicle for preserving the basic values of a democratic 
system of government. It must be strengthened and continue to 
be governed by public officials accountable to the public and 
funded fairly.
    National PTA has long advocated to ensure all children have 
access to equitably funded public schools that improve overall 
well-being and help them achieve their academic success.
    While I come to you today as the vice-president of 
membership of the National PTA, the most important role I have 
is a mother and a nana. I am a proud mother of three and a 
grandmother of nine. Like me, every parent wants to be 
successful, and as an association, we want all kids to be 
successful, not just one school or one group of kids. I am here 
today to speak for every child with one voice on the need to 
adequately fund our nation's public schools.
    In 2002, my daughter Annalishia was a freshman at Frederick 
A. Douglass High School in Oklahoma City. She could not 
complete her homework because her and all her ninth grade 
classmates did not have regular access to textbooks for her 
English class. There were some old books available, but they 
were old, pages were missing, and students had to share them 
during class. No one could take them home to do homework. I had 
to speak up not only for Annalishia but for every child in my 
daughter's class.
    We were told that the district, the school district didn't 
have the money for additional textbooks, so we as parents 
testified at the next school board meeting and showed up at 
every one to push until we got the funding. Finally, the school 
district provided funding to purchase textbooks and put parents 
on decisionmaking committees. However, 17 years later, the same 
equity challenges remain.
    Our teachers in Oklahoma walked out of their classrooms in 
2018 for the same reasons I started advocating in 2002: 
underfunding and a lack of resources. We can't continue to 
repeat this vicious cycle.
    Bottom line, Oklahoma does not invest enough in our 
schools. My state ranks 47th per pupil spending. Funding has 
been steadily cut, and teachers are underpaid. Also, Oklahoma 
is one of the 12 states, 12, that does not provide any funding 
to school districts to build, improve, or renovate schools.
    As a grandparent now, I see my children are fighting the 
same fight and facing the same challenges in education that I 
went through years ago. PTA appreciates Congress' recent 
investments in increasing funding; however, student and 
educator needs still are not met.
    Congress must raise discretionary spending caps. Without an 
increase in these caps, education, health, and work force 
funding will face close to $20 billion cuts. This means 10 
percent less funding for students with disabilities, 10 percent 
less spent on low-income students, and less spending to support 
teacher professional development.
    Congress needs to better fund critical programs in the 
Every Student Succeeds Act and the Individuals with 
Disabilities Education Act. In particular, Congress must ensure 
Title I and the State grants for special education services are 
fully funded.
    Additionally, more resources need to be provided for 
educator professional development, English learners, safe and 
supportive schools, technology and access to the well-rounded 
education with robust student support services.
    Congress should also increase its investments in family 
engagement through the statewide engagement family centers. 
This initiative is assisting parent centers in 13 states around 
the country to ensure families can engage in their child's 
school to support their education. We urge Congress to increase 
funding to at least $15 million in the Fiscal Year 2020 and put 
this program on a funding path to ensure all states can benefit 
in the coming years.
    Budgeting is a reflection of priorities. In Oklahoma and 
across the nation, our priorities should be investment in all 
children. All schools should be equally resourced, and Congress 
must do its part to make sure that every child's potential 
becomes a reality. If you are not already a member of PTA, I 
welcome all of you here today to become members of the Nation's 
oldest and the largest child advocacy association, PTA.
    Thank you for the opportunity to be here to testify on 
behalf of our nation's children and families for increased 
investments in public education, and I am happy to answer any 
of your questions.
    [The statement of Ms. King follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Scott. Thank you.
    Dr. Scafidi.

STATEMENT OF BEN SCAFIDI, PROFESSOR OF ECONOMICS AND DIRECTOR, 
     EDUCATION ECONOMICS CENTER, KENNESAW STATE UNIVERSITY

    Mr. Scafidi. Thank you, Mr. Chairman.
    Chairman Scott and distinguished representatives, since 
1992, according to publicly available data at the National 
Center for Education Statistics, NCES, at the U.S. Department 
of Education, real inflation adjusted spending per student in 
American public schools increased by 37 percent.
    First slide, please. Thank you. There it is.
    That is public school students in 2016 had 37 percent more 
in real resources devoted to their schooling relative to 
students in 1992. So where did these increased resources go? 
Over this period, there was a 20 percent increase in the number 
of public school students and a 30 percent increase in the 
number of public schoolteachers. This fact is commonly known as 
class size reductions were implemented throughout the nation. 
We reduced class sizes. So where did the rest of the money go?
    Second slide, please.
    First, using publicly available data from NCES, one can 
sort public school employees into two categories: teachers and 
everybody else. I call this second category all other staff, 
and it literally includes all public school employees who are 
not teachers. This category of all other staff increased by 52 
percent over this time period. When compared to the 20 percent 
increase in students, this category of all other staff 
increased by more than 2-1/2 times as the increase in students. 
I do not believe this fact is widely known.
    As you know, some dislike economists. Perhaps we are too 
nerdy. Perhaps we do not brush our teeth regularly. Perhaps 
there are many other good reasons for these negative feelings, 
but another reason why some dislike economists is because we 
point out that in real life when we make choices, there are 
uncomfortable opportunity costs.
    You might expect that if public schools are given a 37 
percent increase in real resources, the teachers would get a 
real increase in their salaries, but you would be mistaken. 
Real teacher salaries actually declined by 1 percentage--just 
under 1 percentage point. That means on average a teacher in 
1992 had a slightly higher real salary than a teacher in 2016. 
Why? One reason for this stagnation in teacher salaries was the 
tremendous increase in all other staff.
    For the sake of illustration, let's keep the class size 
reductions. However, suppose that the increase in all other 
staff had only been 20 percent to match the increase in 
students. If the all other staff had increased 20 percent to 
match the increase in students, then a cautious estimate of the 
savings to the public education system is $40.8 billion per 
year in annual recurring savings. This tremendous increase in 
all other staff presented a significant opportunity cost.
    What could we have done instead with $40.8 billion per 
year? One thing would be to give all American public school 
teachers a $12,900 per year increase in compensation. Another 
possibility would have been give over 5 million children 
scholarships to attend the private schools of their choice.
    Next slide, please.
    In a sharp break with American public school history, as of 
2016, the majority of public schools' employees in the United 
States were not teachers. This staffing surge in public schools 
began long before 1992.
    Next slide, please.
    In fact, the staffing surge has been going on since at 
least 1950. Since 1950, the number of public school students in 
America has roughly doubled. The number of teachers has 
increased almost 2-1/2 times that amount. But the increase in 
all other staff has been seven times the increase in students.
    These trends could be forgiven if outcomes have improved 
tremendously or if American public schools were the envy of the 
world. According to long-term trend scores on the NAEP, 
National Assessment for Educational Progress, scores for 17-
year-olds have been stagnant since 1992.
    Next slide, please.
    If taxpayers continue to provide significant increases in 
resources to the conventional public education system, 
literally decades of history has taught us there will be 
significant increases in employment of all other staff, 
stagnant teacher salaries, and stagnant outcomes for American 
students.
    Mr. Chairman and distinguished representatives, there is a 
better way. We now have a large research base that indicates 
that increasing opportunities for American families to exercise 
choice to both charter and private schools would improve long-
run outcomes for American students. First, virtually all the 
evidence shows that students who are allowed to exercise choice 
have significant gains in postsecondary attainment and in 
wages. NAEP scores have gone up dramatically in Arizona and 
Florida, the two states with the most choice.
    Thank you for listening, and I look forward to your 
questions and discussion.
    [The statement of Mr. Scafidi follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Scott. Thank you.
    Ms. Weingarten.

 STATEMENT OF RANDI WEINGARTEN, PRESIDENT, AMERICAN FEDERATION 
                          OF TEACHERS

    Ms. Weingarten. Good morning, Chairman Scott, Dr. Foxx. And 
as this high school social study and government teacher on 
leave from Clara Barton High School in Brooklyn New York, I am 
very grateful for the opportunity to testify in our democracy 
and to testify about how deep and chronic underfunding of 
public education has led to a lack of investment in school 
infrastructure and public services, which in turn, has 
shortchanged the 90 percent of America's school children that 
attend public schools. AFT members and our students live with 
the effects of this every single day.
    For example, I just returned from visiting schools in the 
Virgin Islands, the U.S. Virgin Islands, where teachers are 
spending 10 cents per page in their local Staples to adding up 
to hundreds of dollars a week of their own money to ensure that 
kids have learning materials before them. And there are still 
mold-infested schools, mold that any asthmatic, including 
myself, could detect in a brief time there. You are seeing some 
of the pictures that we have just taken over the course of the 
last couple of years about the building conditions.
    Speaking of mold, last year, two Philadelphia elementary 
schools were closed because of mold throughout the buildings. 
Of course, many schools that have mold are not closed because 
we need them to educate our kids. And a recent survey of 
Detroit's schools found that nearly a third of the school 
buildings are in unsatisfactory or poor conditions with exposed 
electrical wires, leaky roofs, and rodent infections, and as 
the Chair said, we have been at this for 25 years. I filed a 
suit in New York City 25 years ago about these issues.
    Baltimore, last winter, teachers called on the city to 
close schools because of chronic heating problems as indoor 
temperatures plunged into the 30's, and children tried to learn 
bundled in coats and hats.
    And speaking about Florida, in Hillsborough County, the 
district could afford to fix or replace air conditioners at 10 
schools this summer leaving 38 still in major repairs, and so 
when schools opened or reopened in August, indoor temperatures 
were at 88 degrees.
    Last, teachers across the country tell me all the time 
about having to clean up mouse droppings in the morning and 
brand-new white boards rendered unusable because of no access 
to electricity. Frankly, we can do better, and that is why 
teachers in Oklahoma, Arizona, and other places actually went 
on walkouts this year to say we can do better.
    Teachers are helping. We are digging into our own pockets 
literally, as the Chair said, almost $500 of their own money 
every year to buy school supplies, but in Title I schools, that 
number goes up to almost $600. The Chair talked about the 
systematic way that we have looked at this, and, Dr. Foxx, 
listen, we actually looked at these things, and in 25 states, 
we are spending less on public education than we did before the 
recession, and in 41 states we are spending less on higher 
education. We did this district by district, state by state.
    Ultimately, we are trying to help. We will do whatever we 
can, regardless of the conditions in schools, but we need help 
from others too. And the communities are engaged in self-help 
too. During the 2018 election, Wisconsin taxpayers passed 
referendums to direct at least $1.3 billion to school districts 
for capital projects while maintaining or expanding 
programming. In Florida, every local ballot initiative for 
school funding passed 20 out of 20, and there are similar 
stories throughout the country, but we know that property 
taxation only exacerbates inequality.
    The AFT is helping too. We are doing what we can in terms 
of funding community schools, in terms of engaging in this 
help, and in terms of fighting to fund our future, but we need 
Congress to help too, and that is why we completely endorse 
Chairman Scott's proposal to pass the Rebuild America's Schools 
Act, because that will direct funding for capital projects. We 
also think we have to fund Title I so that every Title I 
student has access to physical and mental health services, such 
as the full-time teacher assistants and the librarians and the 
guidance counselors that they need and that this anniversary of 
Parkland are showing that we need. We need to fund the IDEA. 
The government promised 40 percent of funding, yet the 
contribution never exceeded 16 percent.
    Look, I am passionate about this. I live these schools. I 
work these schools. My kids have done really well in these 
schools, but it is a defining moment to work together on real 
sustainable solutions to this disinvestment.
    Thank you.
    [The statement of Ms. Weingarten follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Scott. Thank you.
    I will now have questions from members, beginning with the 
gentleman from Arizona, Mr. Grijalva.
    Mr. Grijalva. Thank you very much, Mr. Chairman.
    Just, Ms. Weingarten, and the questions--I am going to 
present you with a question somewhat jumbled because I 
haven't--and I know you will be able to provide a response. You 
know, part of the reason we are at this point in terms of 
school funding facilities, teacher pay, et cetera, is, I think 
part of the reason is the movement during this period of time 
intensifying of privatizing public education and the 
incentivizing with taxpayer dollars, that growth. This policy 
shift has affected many things: classroom teachers, basic 
facilities' renovations and upgrades, new construction. Can you 
talk about that correlation?
    Ms. Weingarten. Yes. Yes, I can, Congressman. So, look, I 
brought an op-ed that was dated 2/12/2019, which we will put in 
the record, from Dennis Smith in the West Virginia Gazette, 
entitled, Words of caution from experience in failed charter 
systems. This was a charter school administrator and authorizer 
that ended up talking about what happened in Ohio. We all know 
what happened in L.A. where charters take the first dollar, 
$600 million dollars out of the public school systems, and it 
syphons off that money in that way.
    And let me just say, before I read his quote here, that I 
actually run one of the highest performing charter schools in 
the United States. It is called UNI PREP. It is in New York 
City. It is a public charter school. It is a unionized school. 
We have between a 95 and 100 percent graduation rate for the 
last 6 years, and what we have done is actually put one 
guidance counselor for every hundred kids.
    But what Mr. Smith says is take Ohio, where charters have 
operated for 20 years. From a high point of 400 schools, 340 
are operating today. Moreover, there is a junk pile--this is 
his words, not mine--of failed charters that have closed. The 
Ohio Department of Education website lists 290 schools that are 
shuttered, with some closing midyear, disrupting the lives of 
students and their family. Moreover, total charter school 
enrollment in the state is down by 16,000.
    Mr. Grijalva. Thank you. Thank you.
    Ms. Weingarten. My point is just this: Charters have to 
operate within a public school system. They have to be 
accountable. They have to be transparent. And they cannot 
syphon off money that other children need.
    Mr. Grijalva. Thank you.
    If I may, Ms. King, a question along that same topic. 
Having been a school board member way back when back home in 
Tucson Unified School District, one of the issues with 
charters, whether they be public or private for-profit as well, 
is the issue of accountability and oversight, that public 
school systems are required by law, and justifiably so, to 
produce financial records, disclosure, conflict of interest, 
keep your minutes, board members are bound by the open meetings 
law. Charters don't have that. Do you think it is important 
that, if we are going to have this public charter or private 
for-profit, that they too have some level of accountability for 
their finances and their work, that be public and that be 
noted?
    Ms. King. Absolutely. When we are talking about public 
education and the funding that goes into our schools, that is 
important. We have accountability for a reason. And listening 
to our guests today speak passionately about public education 
and even why public education is needed. Our charter schools, 
and whether they are public or for charter or, you know--Ok. So 
I am nervous. And I am very passionate about kids. So if I feel 
like I am getting ready to cry, I have to calm myself down, 
because our students right now need resources. Our schools--our 
teachers need to be paid, right? And it is not fair when we are 
taking public dollars and putting them in for-profit charter 
schools and there is no accountability on anything that they 
are doing to run their schools, but we are held at a higher 
level of accountability for public schools. It is not fair for 
the students in our communities and in our schools and for the 
families that they serve.
    Mr. Grijalva. Thank you, Mr. Chairman. I yield back.
    Chairman Scott. Thank you.
    Dr. Foxx.
    Ms. Foxx. Thank you, Mr. Chairman, and I want to thank all 
of our witnesses here today. I will make one brief personal 
comment.
    Dr. Contreras, I wanted to be a high school English 
teacher, but I was too poor to do student teaching, so I wound 
up, look at this, with a wasted life here. Instead of 
becoming--I could have become a teacher and a superintendent. 
Look at that. Thank you very much for what you do.
    Dr. Scafidi, I have argued publicly several times before 
that teachers should be paid more. I appreciate that your 
testimony backs up my impression, which is that teacher 
salaries have not kept pace with the cost of living. I can 
understand why teachers are upset. Unfortunately, your research 
shows that all the activism from teachers is generating public 
education spending, which is largely directed away from 
instruction.
    If you were advising teachers how they should approach 
negotiations with state and local leaders, what would you 
suggest they advocate for to ensure that new resources benefit 
them?
    Mr. Scafidi. Ok. Thank you, Dr. Foxx. There are powerful 
forces in the public education system driving this increase in 
all other staff, and so if teachers, you know, their priorities 
should be what their priorities are, but if their priority is 
salaries, they should focus on that issue, because my kids are 
in public school in Georgia, and I wrote a paper about what I 
called the 13-layer cake.
    There are 13 layers of public officials that have a say in 
what goes on in my children's classroom. Congress, the 
President, Secretary of Education, U.S. Department of 
Education, Governor, state House, we have a bunch of state 
education agencies, school board. All of them have policy 
priorities, and all those policy priorities might be great, but 
what it has led to over many decades is an increase in all 
other staff. If teachers want salary increases, they should 
focus like a laser beam on that.
    Ms. Foxx. Thank you, Dr. Scafidi. You have pointed out that 
since 1992, public education has received a 37 percent increase 
in real resources, and you have pointed out that student 
performance hasn't significantly changed over that time. And 
yet we are constantly told that if we just spend a little more, 
we will unlock the secret to vast improvements in performance.
    Do you think you could highlight for me the level of 
magical spending we need to see an increase in performance?
    Mr. Scafidi. You can always grab a study that says if we 
increase spending by X, we will get an achievement increase of 
Y, right? And some of those studies are well done by great 
researchers with great data, great methods, great research 
designs, what have you. But then when you look at the spending 
increases that they say will lead to this increase in 
achievement, then in the real world, we typically increase 
spending by even more than that, and the achievement gains 
don't materialize.
    So it is perhaps ironic that the economists are saying we 
need to look at the real world. If in the real world spending 
increases aren't translating into achievement gains, then we 
have got to question that research. So there is no magic number 
in the current system.
    Ms. Foxx. Thank you. Thanks. One more question. This may 
offend you, but as I was saying before, I have argued publicly 
several times that teachers should be paid more. What I have 
actually said is that elementary and secondary education 
teachers should be paid more and college professors should be 
paid less, because the teachers at the elementary and secondary 
have the tougher job.
    I believe K-12 teachers have a harder job, but I also know 
that postsecondary salaries are much more market driven. Are 
there steps that state and local policymakers could take that 
would make teacher salaries more market responsive?
    Mr. Scafidi. Sure. There is a professor retired at Stanford 
University, Mike Kirst. You should look him up. He shares your 
views about salaries.
    Yes. In higher ed, our salaries are largely market driven. 
Disciplines like business, law, medicine, engineering that have 
good outside options, even economics, we are paid quite well. 
Disciplines like the humanities that have less good outside 
options, actually, they probably financially would have been 
better off being a K-12 teacher instead of spending all that 
time and money getting a Ph.D. So for humanities professors, it 
is rough.
    So how could we make teacher salaries more market driven? 
All of our rage in policy debates is about monopsonistic labor 
markets, one buyer of labor. The most monopsonistic labor 
markets in the United States is the public education system, 
because in a community or even a county, you have one buyer of 
labor that is the big player. And when there is one buyer of 
labor in any walk of life, the workers can be exploited. We 
need to have a more market-driven education system, and then 
teachers will get paid more and they will be treated a lot 
better.
    Ms. Foxx. Thank you very much. Thank you, Mr. Chairman.
    Chairman Scott. Thank you.
    The gentleman from Connecticut, Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. I want to yield my 
time to my colleague from Connecticut, Congresswoman Hayes, the 
2016 National Teacher of the Year.
    Mrs. Hayes. Good morning. Thank you all for being here.
    First of all, Ms. King, please don't ever apologize for 
being passionate about children. And my apologies to Randi 
Weingarten. I could have given you a proper introduction, had I 
known. But we are here today to discuss a topic that hits home 
for me. As you heard my colleague say, I am a public school 
educator. In fact, this time last year, I was teaching high 
school social studies at John F. Kennedy High School before 
going on to be named the National Teacher of the Year.
    Something very interesting that I would like everyone to 
know. In my year as National Teacher of the Year, there are 
four finalists for this honor that are celebrated in their 
profession, the top teachers in the nation. Last year, three of 
those four finalists went on strike.
    I would say to you, Mr. Scafidi, if you think this is just 
about salaries, that is not how this works. That is not how any 
of this works. My colleagues from Oklahoma, Washington, and 
LAUSD went on strike not for salaries, for resources and to 
make sure their students got what they needed.
    So I am interested to learn--I know a lot about education. 
I know a lot about what the other members of the panel said, 
but I am trying to unpack your testimony and perhaps gain some 
valuable insight.
    In reviewing your testimony and your previous writings, I 
found that you spent your career advocating for school choice 
and for voucher programs. In your 2015 paper, The Integration 
Anomaly, you argue that for choice to improve integration, it 
should be free from regulation. We also heard at the start of 
this hearing that the last thing schools need is more control 
from Washington.
    Mr. Scafidi, would you categorize the Individuals with 
Disabilities Act as a regulation? Yes or no.
    Mr. Scafidi. Yes.
    Mrs. Hayes. Yes. Would you categorize Title IX of the 
Educational Amendments of 1972 as a regulation?
    Mr. Scafidi. Yes.
    Mrs. Hayes. Would you categorize Title VI of the Civil 
Rights Act of 1964 as a regulation?
    Mr. Scafidi. Yes.
    Mrs. Hayes. Would religious private schools that accept 
vouchers be allowed to ignore any of these regulations on the 
basis of religious freedom?
    Mr. Scafidi. In my paper, I advocated, the paper you 
referred to, that they should have to abide by civil rights 
laws.
    Mrs. Hayes. Not what you advocated, would they be able to 
ignore any of those regulations?
    Mr. Scafidi. It depends on the plan. It depends on how the 
bill is written or the law is written, but I would advocate 
that they should follow civil rights.
    Mrs. Hayes. Not what you would advocate. Yes or no.
    Mr. Scafidi. It depends on the law.
    Mrs. Hayes. Yes, they would. Do you think that skirting 
Federal civil rights protections that are codified in 
regulations would help achieve greater integration?
    Mr. Scafidi. No, and I wrote that they should not.
    Mrs. Hayes. Would it make public schools safer or better 
for all students?
    Mr. Scafidi. If--
    Mrs. Hayes. If they were allowed to skirt the regulations.
    Mr. Scafidi. No.
    Mrs. Hayes. No. In my time as National Teacher of the Year, 
one of the things I was able to do was travel all around the 
country, visit over 40 states and view firsthand their 
educational opportunities, experiences, settings for kids, and 
I promise you, trust me, they do not all look the same, and we 
don't want to leave that up to states and local municipalities.
    Can you help explain how it is possible to achieve greater 
integration through school choice without any of these 
regulations in place?
    Mr. Scafidi. Sure. What we have done in this country in 
public education, and a lot of it is great, is making schools 
similar. We have equalized funding, which is great, but now 
states have common standards and common testing, and so schools 
are becoming more similar, so students are sorting by 
sociodemographic characteristics in this country. There is my 
study and another study by some sociologists have found that 
since 1980 or so, public school segregation increased between 
then and 2000 by race. After 2000, public school integration 
has lagged neighborhood integration. Public school integration 
by income has increased dramatically in this country since 
around 1970.
    I think a well-designed school choice program giving, for 
example, bigger scholarships to low-income children and what 
have you, and I list a whole list in my report that you 
referred to, would promote integration, and I think that is the 
only best hope to promote integration by race and class in this 
country in schools.
    Mrs. Hayes. I am almost at the end of my time, but I can 
assure you that I have lived, worked, educated my children in a 
Title I school district. That was not by choice. For many 
people, it is their only option. And it sounds like, under your 
plan, this idea that export the highest performers out and keep 
those people right there will not work.
    Mr. Chair, I yield back.
    Chairman Scott. Thank you. And the gentlewoman yields back 
her time.
    The gentleman from Tennessee, Dr. Roe.
    Mr. Roe. Thank you, Mr. Chairman.
    First of all, Ms. King, I want to tell you that the most 
difficult political job I ever had was president of the Towne 
Acres Elementary School PTA. I am going to start with that. And 
anyone who has ever been a school director, your life 
expectancy is not that long around the country, 3 years, I 
think. I am a public school proponent. I didn't go to 
kindergarten. They didn't have one. And the facility I started 
in was a two-room country school without indoor plumbing or 
running water. But I had great teachers. And I want to thank 
those teachers at that little country school that I started at.
    And I want to thank the teachers at New Providence 
Elementary School I went to and then the high school I went to 
because I would not be sitting here today if I did not have a 
great public education. All of my children went to public 
schools in Johnson City, Tennessee.
    And I think when you look at a public school, its product 
are its students and the outcome of those students and how well 
they do. That is what we should look at. In a previous life, my 
wife taught in an inner city school in Memphis when I was in 
school in Memphis, and it was much different than the rural 
system that--I now represent rural Appalachia in northeast 
Tennessee in a very rural area.
    Now, I talked to my school director yesterday in my 
hometown who is a friend of mine, and I asked him, I said: What 
are the challenges that you have?
    And many of you have mentioned some of those. I will go 
through them: a limited amount of money for a lot of 
compliance; No. 2, the way we fund Title I or special 
education; and, three, for him, was the English language 
learners. We have 14 teachers in our system with 8,000 students 
we have had to hire for English--limited English, and that adds 
a huge burden in cost.
    Now, having said that, I listened to the--it sounds like 
with Dr. Contreras in their school system, we are not in a 
wealthy area. But in the last 10 years, we have invested almost 
$200 million in our schools. We have made the tough choices. I 
was a city commissioner and the local mayor, and we made those 
tough choices, and we had to raise property taxes to do it, but 
we believe in education, and we funded that.
    There are no charter schools in the First District of 
Tennessee. There are faith-based schools in there because of 
the education that some parents want and home schoolers--we 
have sort of left them out--some people that don't feel like 
that the school system is meeting their needs. But no charter 
schools.
    In my district, we have heavily invested in those schools 
and it is not just the facility. And I don't--I would encourage 
all of you all--many of you all probably have read M. Night 
Shyamalan's book ``I Got Schooled.'' And he mentions five 
things in his book that result in good outcomes: One is get rid 
of ineffective teachers, not many of them, but if you are 
ineffective in the classroom, you do damage. No. 2 is get the 
principal out of office and put them in the class. A good 
principal in a school is absolutely critical. And then frequent 
collaboration and feedback about what you are doing, school 
size, not these big, huge mega schools, but the smaller the 
school, not necessarily the classroom, and then adding 
classroom time, making sure that students stay in the classroom 
long enough.
    So I think it is a local issue. And, Dr. Scafidi, I would 
like to have you comment on that. Where the Federal Government 
comes in, I know in higher education, our good friends up at 
Vanderbilt University stated that just complying with Federal 
regulations--if it came on those strings, that would be one 
thing, but it all comes with strings--adds $10,000 per student 
for their tuition, just complying with Federal regulations. It 
is ridiculous. And that goes along where you all are. You spend 
an enormous--and that is some of that big bar graph you saw. 
The other is compliance that you have had. Would you comment on 
that?
    Mr. Scafidi. Yes. Just in higher ed, my prior university, 
an email went out that the university was having a job search 
for a director of institutional effectiveness. And, you know, 
economists are kind of wiseacres, so one of my colleagues 
immediately forwarded that email to the rest of us--we had all 
gotten it--and said: If you have to have a director of 
institutional effectiveness, that is prima facie evidence your 
institution isn't effective.
    Well, now universities have offices of institutional 
effectiveness just a few years later. The compliance in higher 
ed is terrible. In K-12, it is even worse. And so when I give 
this talk to like local audiences, before I am done with the 
first paragraph the local public educators immediately blame 
State and Federal mandates.
    I have looked at data. That is not completely true. All 
three levels of government have contributed to the staffing 
surge, but definitely compliance is an issue, yes, sir.
    Mr. Roe. Well, I would like to have the educators that are 
here point out those things. That is something we could do to 
actually help them have more resources at a local level, is to 
reduce that somewhat.
    Mr. Chairman, my time is expired. I yield back.
    Chairman Scott. Thank you.
    The gentlelady from Ohio, Ms. Fudge.
    Ms. Fudge. Thank you very much, Mr. Chairman.
    And thank you all for being here today.
    I just want to make a couple comments before I get to my 
questions. I mean, certainly, I think Dr. Foxx is right; you 
know, sometimes government is not the answer, especially when 
we have a shutdown that the President bragged he would be proud 
to own. So the leadership does make a difference.
    Second, I think it is important for us to understand that 
education has become the civil rights issue of our time. If you 
are wealthy, you are guaranteed at least a chance at getting a 
good education; if you are poor, you are not.
    We look at Dr. Scafidi's charts. If you just looked at them 
in a vacuum, you would assume, oh, we are spending so much more 
money on education, which, in fact, is not true. It is true in 
some places but not in others, in particular, not in my state 
where most of my schools get their local funding through 
property taxes.
    So, if you are a community that does that and you are a 
poor community, property taxes are not the same anymore. They 
are going down every year. We are not only not giving more 
money in most instances, in some times, we are giving less, 
especially when we do things like cut the eState tax, which 
they thought was such a great idea, or we do things like cut 
corporate taxes, or we do things like say: You know what? You 
pay too much money for your property taxes.
    It is not a tax cut; it is a tax shift. And so, as it 
funnels down, local communities get less and less. So they can 
call it what they want. It is a scam is what it really is.
    I want to just say--I was going to actually talk to Dr. 
Scafidi about some of his charts, but after I heard his answers 
about what he thinks is onerous, I thought I would just ignore 
it.
    I do want to recognize, I have some sorority sisters 
sitting out there--how are you all?--who have traveled here to 
hear Dr. Contreras.
    Dr. Contreras, I have a question for you. In your 
testimony, you say that inadequate facilities, things like 
broken HVAC systems, et cetera, put students at a competitive 
disadvantage. Could you explain to me how that is?
    Ms. Contreras. So many of our facilities have--
    Ms. Fudge. Is your mike on?
    Ms. Contreras. Thank you. Many of our facilities have basic 
mechanical problems, HVAC problems. As I said, there are 50--
the average age of the facility is 52 years old. We have 
deferred maintenance needs in the amount of $800 million, and 
we have received $6 million a year for capital needs, 
maintenance needs.
    So we have to take operations money to try to address some 
basic needs for students. In fact, when I first got to Guilford 
County, we had a HVAC issue in one middle school that cost $5 
million. It took us 3 years to fix the cooling system because 
it would have totally taken all of our capital money for the 
year. It would have depleted the budget.
    So our students are in old classrooms, buildings with 
technology infrastructure but without modern technology. The 
students are collecting the rain in buckets.
    Ms. Fudge. Dr. Contreras, I don't really--I need to just 
cut you off because I have one other quick question. I think 
that we get the point. I bet you could do a whole lot with 
$1.375 billion dollars. What you think? Ok.
    Randi Weingarten, last question here quickly. When Chief 
Justice Earl Warren delivered the majority opinion in Brown v. 
Board, he stated that education was a right that must be 
available to all on equal terms. We know now that we are more 
segregated than we probably were in 1968. Can you explain to me 
how the underfunding of Title I and IDEA are creating part of 
this problem?
    Ms. Weingarten. So, thank you, Representative Fudge.
    The underfunding, there is a new report by AROS that showed 
that the underfunding of Title I and of IDEA together leaves 
about $580 billion dollar hole. So this is what it means: Our 
kids who have the least should get the most from the Federal 
Government.
    We know that property taxes, as you just said, exacerbates 
inequality, but yet some of these districts are doing that 
because they are trying to fund their schools as, you know, Dr. 
Roe had said. But that is where, if it is a civil right, which 
it is, that is where we need to actually fund the schools in 
urban and rural areas where kids are not getting what they 
need.
    And that is what we thought the Brown decision was intended 
to do, and that is what we thought IDEA and Title I is intended 
to do. So guidance counselors, nurses, lower class sizes, the 
kind of technology you need to have the engagement in career 
tech ed, Title I issues, or IDEA issues. When kids need an 
individual education plan, how do you actually make that happen 
other than the compliance?
    Ms. Fudge. Thank you so much. My time is up. And I just 
want you to know that is the law. It is not a regulation, sir.
    Thank you. I would yield back.
    Chairman Scott. Thank you.
    The gentleman from Kentucky, Mr. Guthrie.
    Mr. Guthrie. Thank you, Mr. Chair. I appreciate it.
    And, Congresswoman Fudge, you have your sorority sisters 
here. I know you have them in Bowling Green, Kentucky, because 
you came to speak at Western Kentucky and your sorority 
sisters. So you have a wonderful group of sisters.
    I want to start, Dr. Scafidi, teacher salary stagnation and 
the growth of nonteacher staff has gone on a long time. Why do 
you think this has not been yet addressed?
    Mr. Scafidi. I think partly people didn't know it was going 
on. I mean, I got the idea for the paper when I first wrote it 
from public school teachers. But, again, I think there is so 
many elected officials and government employees at three levels 
of government that have a say in how our public schools are 
run, that is causing the problem.
    I am starting new research to investigate this, and a big 
issue that I kind of forgot in my 13 layers is the courts, when 
there are school funding lawsuits periodically in states, and 
they kind of rotate around to all the states, after a school 
funding lawsuit is won for more funding for public schools, 
there is a big increase in nonteaching staff in those schools 
right after that.
    Mr. Guthrie. Ok. Thank you.
    And it kind of leads me into my next question. You have 
talked about the inefficiencies in our education system that 
lead to a misallocation of resources. Maybe this is your next 
paper you are talking about. Have you looked specifically at 
what decisions made by Federal, state, and local policymakers 
might be the main drivers?
    Mr. Scafidi. Again, I am starting to investigate that, but 
in some sense, it is all of the decisions. I mean, this has 
been going on a long, long time. And people have good ideas, 
you know, legislators and state officials and Federal officials 
in saying: We should do this in the schools or that in the 
schools.
    And then it is just layer, layer, layer on top. And, you 
know, that is a choice, right. And that money that goes to 
increasing the staff is not used in other places like building 
schools or rehabbing schools or salaries.
    Mr. Guthrie. Ok. Thanks.
    And then you note in your testimony that one of the 
benefits of addressing the misallocation of resources could be 
to give every teacher in the country a $12,900 raise. If we 
could reallocate resources into teacher pay, would an across-
the-board increase provide the greatest benefit to teachers and 
students?
    Mr. Scafidi. I don't think an across-the-board raise is the 
right answer. I would support more market-driven pay for 
teachers because I think that would get more people to come 
into the profession because then people would be paid what they 
are worth.
    Mr. Guthrie. Ok. You know, I was in the state legislature 
in Kentucky, and we have struggled with a lot of other states 
in getting the right formula to our students and to our 
schools. And our general fund budget since I first got there, 
like 2000, was about $14 billion, and that is just property tax 
that goes with the state government, sales tax, income tax. 
Last year, I think it was $24 billion, so we have gone up $10 
billion.
    And one of the issues we are having here is that so much 
money is now obligated, particularly like Medicaid, Medicaid 
expansion, and so forth obligates so much money, the room to 
move and to do the things I think our state citizens say: These 
are priorities we really want to move forward.
    So I know our state legislature is struggling. I know they 
want to make it right. I think we do too, but it needs to be 
done at the right level, you know, and so right level of 
government without putting too much more bureaucracy in place 
and other things.
    Because I always said when I was a state legislator, every 
time we would require a report, and there are a lot of bills 
that say report on this, report on that, report on--which are 
important, because if you measure it, you manage it, but it 
also requires somebody to write the report that is not teaching 
the students. So those are the, I am sure, issues that you are 
looking at.
    And I appreciate you all being here. I appreciate you being 
here, for your testimony. And I will yield back my time.
    Chairman Scott. Thank you.
    The gentleman from the Northern Mariana Islands, Mr. 
Sablan.
    Mr. Sablan. Yes. Thank you very much, Mr. Chairman, for 
holding today's hearing, and I thank the witnesses for being 
present.
    A caveat, my two youngest are school teachers. One teaches 
English in the tenth grade and the other is a special education 
teacher, and so I do have little bit of interaction whenever I 
am home with two teachers.
    But, Dr. Contreras, 3 months ago, the students in my 
district, in the Northern Mariana Islands, went through Super-
Typhoon Yutu, the second strongest storm to hit U.S. soil in 
history. Multiple schools were lost, which means these students 
are now going to have their courses in FEMA-built temporary 
tent classrooms, like ones in huts.
    Our public school system serves around 10,000 students on 
three islands on the Western Pacific where typhoons are common. 
You stated in your testimony that you have spent time teaching 
in different school districts across the nation. If you and 
your school district colleagues would design a school at this 
scale for students in this environment, what elements would you 
say are the most important?
    Ms. Contreras. One moment. She is going to repeat what you 
said because of my hearing loss.
    Thank you. I think certainly there are ways to design 
schools to make sure that you are less likely to experience 
some of the massive damage that you experienced in your 
district or that we experienced with three of our schools in 
Guilford County. However, that does take significant funding. 
You know, you would have to speak to someone who is an expert 
in that specific design.
    But I think that speaks to the need for the school funding 
and for making sure that districts are receiving adequate 
funding, not just for building schools but for building schools 
that can withstand earthquakes, tornados, hurricanes, which is 
more complicated, complex, and does take some additional 
funding than just renovating a school. That takes significant 
funding.
    Mr. Sablan. Thank you. And I have another question. Not 
only is the--on the policy is--not only is the percentage of 
funding for IDEA actually at its lowest it has been in decades, 
but we also have a Secretary of Education and a President who 
failed to prioritize students with disabilities in their annual 
budgets.
    In the Fiscal Year 2018 budget, President Trump proposed a 
massive cut to IDEA funding, and in the Fiscal Year 2019 budget 
he proposed flat funding, which would have resulted in an 
essential cut.
    Schools in the Northern Marianas and across the nation need 
the resources to train teachers and support students with 
disabilities. In fact, in the insular areas, the Marianas, 
Guam, American Samoa, the U.S. Virgin Islands are not included 
in the special education preschool grant program under IDEA.
    So, Dr. Contreras, how has the deprioritization of IDEA 
funding impacted students, teachers, and decisions you have 
made about how dollars are spent?
    Ms. Contreras. Absolutely. Not prioritizing IDEA is causing 
significant problems in schools. In fact, in Guilford County, 
we have one nurse for 1,700 students. And teachers, classroom 
teachers are having to catheterize students themselves because 
we do not have adequate staff to meet student needs.
    We are not able to handle their transition plans 
accordingly, and we cannot provide the state-of-the-art kind of 
instruction and technology that those kids need and deserve to 
meet their IEP goals. So flat funding would not be a way, in my 
educational opinion, to meet the needs of the most vulnerable 
students in the district.
    Mr. Sablan. Thank you. I don't mean to cut you off. I do 
have a question for Ms. King, if I may.
    Ms. King, could you share from a parent's perspective why 
it is important to provide more funding to the Individuals with 
Disabilities Education Act to support students with 
disabilities?
    Ms. King. Yes. Funding Title I in IDEA would give our 
children less--some less--disadvantage in schools, more 
resources that they need. We have students in our classrooms 
that the teacher-to-student ratio is huge. It is much larger. 
They can't get the one on one that they need to be successful, 
not even with creating their own individual planning for them 
to be successful inside of their schools.
    The fact of thinking that children with special needs is 
not important to put funding to is very difficult to think 
about as a parent or as a grandparent who actually has a son 
right now that is classified as having a disability. My 
daughter is going through things right now to get him help. And 
to think that we don't think that our students need or have the 
want, the capability of having any kind of resources or funding 
is ludicrous to me as a parent.
    Mr. Sablan. Ok. Thank you.
    I will submit other questions for the witnesses to answer, 
but we will be holding additional hearings on IDEA and Title I. 
Thank you. Thank you very much.
    Chairman Scott. Thank you.
    The gentleman from Wisconsin, Mr. Grothman.
    Mr. Grothman. Yes, a few questions.
    First of all, for Mr. Scafidi--I know I am pronouncing that 
wrong. There is a popular talk show host in Milwaukee spells 
his name the same way.
    Just a followup. I noticed in one of the things that you 
prepared, over an almost 20-year period, staff was going up so 
much more than the number of students. It looks like 
nationwide, during a period in which there was an increase in 
students of 17 percent, an increase of staff of 39 percent.
    Could you comment on that? I mean, it looks to me like 
either resources are being horribly misallocated or something 
is going on. I mean, it seems to me if you have that big of an 
increase in staff, something was going on. Could you comment on 
that?
    Mr. Scafidi. Yes, sir. That was a different time period 
than what I presented today, a little bit shorter time period. 
But this has been going on for a long, long, long time. So, if 
we keep the same system, I don't know why we think it would 
change. And, second, I wouldn't care about the increase in all 
other staff if we were getting a return. It is not clear we are 
getting a return on that, and so that is why I argue that is 
inefficient.
    Mr. Grothman. Ok. And just to look what I have here, when 
you are increasing the number of staff by about 40 percent when 
the increase in students is about 17 percent, that would not 
indicate a lack of funding, right?
    Mr. Scafidi. No.
    Mr. Grothman. Ok. Next question for you, something that 
just kind of mystifies me here: In the State of Wisconsin right 
now, we have a substantial budget surplus. And just doing a 
quick google, that is true of other states. Apparently, Ohio 
has a surplus of hundreds of millions of dollars too.
    Right now, might have changed in the last couple months, 
but last time I checked, it looks like this year the Federal 
Government is going to be borrowing about 22 percent of our 
budget. I mean, irresponsible beyond belief.
    Could you comment psychologically as to why, when you have 
two levels of government, the level of government closest to 
the people running surpluses of hundreds of millions of 
dollars, and here in Washington, we are borrowing over 20 
percent of our budget already, why, when people feel we need 
more money for schools, do they think it is the Federal 
Government who ought to be kicking in more money when we are 
broke out of our mind and the states are running surplus, and 
when the states are closest to the people so presumably would 
be able to do a better job of seeing where it should be spent 
or what ties we put with it?
    Mr. Scafidi. Yes. I have actually worked for two Georgia 
Governors, a Democrat and a Republican, and it really rankles 
them that the Federal Government can spend--deficit spend--
seemingly to a large extent, and they have balanced budget 
amendments in their states.
    Mr. Grothman. But why would you--and I understand--it 
scares me when I hear people in education, you know, who are 
educating the next generation of children, who are apparently 
coming up here and their role model for young people is ask 
this completely broken Federal Government for more money when 
you are running surpluses locally. It just amazes me that 
anybody would do that, but comment.
    Mr. Scafidi. Yes. It is just a different system. I mean, 
the Federal Government can run deficits. The state governments 
have balanced budget amendments. And, you know, it has led to 
very different outcomes. You know, one has big fiscal problems 
and states, you know, balance their budget every year.
    Mr. Grothman. Ok. That is true. I mean, it is just kind of 
a scary thing.
    Next thing, people talk about teachers' pay, and I don't 
know--there is one in our papers today, but at least when I 
have looked at things in the past, frequently don't take into 
account fringe benefits. And when you take into account fringe 
benefits, I mean, very generous health benefits, very generous 
pension benefits, the gap kind of closes or disappears. Do you 
think that is true nationwide?
    Mr. Scafidi. Sorry. I didn't hear the last part of your 
question.
    Mr. Grothman. Is that true nationwide?
    Mr. Scafidi. Yes, sir. Public school employees, and I am in 
a public university, we have very generous health and 
retirement benefits, including retiree health benefits.
    Mr. Grothman. That is one of the reasons--
    Mr. Scafidi. And my analysis did not take into account. I 
am just looking at salary.
    Mr. Grothman. Ok. So, if you take into account the fringe 
benefits, maybe things disappear.
    I will point out it bothers me when people in the education 
system try to discourage people from getting involved. I 
remember even when I was a child, I think everybody just thinks 
about being a teacher. I had a teacher who decided to take time 
out from his class and rip how much he was making. And I think, 
for people who care about education, I think people ought to 
take that into account.
    Chairman Scott. Yield back?
    Ms. Foxx. Do you yield back?
    Mr. Grothman. Oh. I yield back, yes. When we are out of 
time, you can just grab it back.
    Chairman Scott. Thank you very much.
    Dr. Adams.
    Mr. Adams. Thank you, Mr. Chair.
    And thank you, Ranking Member.
    And thank you to all the witnesses for being here today, 
and thank you for your testimony. Many years ago, when I was a 
member of the school board, I ran because I was an angry 
parent, and today I am an angry grandparent about what is not 
going on that should be going on.
    But, Dr. Contreras, I want to thank you for all you do to 
educate our children back home in North Carolina. And, you 
know, there is no reason why when Guilford County Schools needs 
more than $1.5 billion in capital investment, that local and 
state school funding per student in our state has fallen 19.6 
percent since 2008 as of 2015.
    As Dr. Contreras stated in her testimony, our state has 
increased public education funding since 2011, but the fact of 
the matter is it is just not enough. Now, I served as a member 
of the state House for 20.5 years, and I have got to tell you 
that our state legislators, not just North Carolina, but North 
Carolina specifically, need to do better.
    We need to make public education a priority. But we cannot 
think that our schools can improve our children for the 21st 
century work force in an increasingly global economy and still 
have schools that not only not have up-to-date technology in 
workplaces but also threaten the health and safety of our 
children.
    Dr. Contreras, can you tell me the last time Guilford 
County built a new school, and is that school up to model 
standards and codes?
    Ms. Contreras. I do not have the--
    Mr. Adams. You want to put your microphone on? Your 
microphone.
    Ms. Contreras. I am sorry. I do not have the date of the 
last time we built a school, but the latest schools are built 
to current code and standards. But we have far too few that 
have been built recently. And about, as I mentioned, about half 
of them need--are rated poor, half of the schools are rated 
poor or unsatisfactory, meaning they need to be rebuilt or we 
need to demolish them and build totally new schools.
    Mr. Adams. Ok. Now, you mentioned that Guilford County is 
stretching dollars for mobile units due to the class size 
mandate. Is North Carolina not helping counties to fund that 
mandate?
    Ms. Contreras. The state would say they are funding the 
teachers, but that mandate has required that we increase the 
number of classrooms by about 940, which causes a problem with 
facilities.
    We also are not funded for any of the textbooks, 
technology, and materials. And 58 percent of all new teachers 
in the district are lateral entry, have no formal training 
because of the mandate.
    Mr. Adams. Ok. So, quickly, is learning different in the 
mobile units versus the mortar buildings, the brick and mortar?
    Ms. Contreras. Is there a difference in the mobile units?
    Mr. Adams. Yes, in terms of the learning of our children.
    Ms. Contreras. I think it is obviously preferable that they 
were in the building with the rest of the students. Obviously, 
students are moving in and out of the building in bad weather, 
and we have students who are very vulnerable students in those 
mobile units. We are grateful that the tornado occurred on a 
Sunday because the mobile units were completely destroyed, 
leveled to the ground.
    Mr. Adams. Right. That is a safety issue too.
    You know, I have got a lot more I want to say, but I do 
want to get back to something Dr. Scafidi said in terms of all 
of the increases and--but more specifically the claim about 
nonteaching staff and their value or nonvalue. And so, Ms. 
Weingarten, if you would just give us your reaction to that, 
please.
    Ms. Weingarten. So the title that--
    Ms. Adams. Your microphone.
    Ms. Weingarten. Sorry. Thank you. Thank you, Representative 
Adams. The timetable that Dr. Scafidi was talking about also 
included the timetable of the Individuals with Disabilities and 
Education Act and the Disabilities Acts, and those actually 
required that or promised that the Federal Government would 
spend 40 percent of those requirements. It only ever spent 
sixteen.
    Mr. Adams. This is for the nonteaching folks. That is where 
I am going.
    Ms. Weingarten. Right. This is what it means--
    Ms. Adams. And I have only got--
    Ms. Weingarten [continuing]. the paraprofessionals, the 
nurses, the psychologists, the social workers, all of the 
physical and other kind of hardware and instructional supplies. 
And all of that, if you did an audit, you would, I think, see 
that most of the nonteacher increases in schools across America 
was because of the needs in IDEA.
    Mr. Adams. Thank you very much. And, you know, just one 
point, we need all of those individuals to help facilitate the 
learning that has to go on in the classroom that students do 
need that support.
    Thank you, Mr. Chair. I yield back.
    Chairman Scott. Thank you.
    The gentleman from Indiana, Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman.
    Dr. Scafidi, your testimony was quite compelling. And I 
want to go back for a moment to your definition of teachers 
versus everybody else. Are you aware of any Federal definitions 
that do lay out the difference between in the classroom versus 
out of the classroom cost in education?
    Mr. Scafidi. Well, the NCES, National Center for Education 
Statistics, right down the street, they have a definition of 
who is a teacher and who is not. And they ask states to report 
that data to them in that way.
    Mr. Banks. Do those definitions perhaps change from state-
to-state as to how they are quantified at the state level 
versus the Federal definition?
    Mr. Scafidi. I have worked a lot with state personnel data, 
and states have what are called job codes, and so each public 
school employee has a job code. And so states could have 
different definitions, but they are supposed to conform to the 
Federal definition when they report it to the state--sorry, 
report to the Federal Government.
    Mr. Banks. In my state, the State of Indiana, there is 
currently legislation working through the state legislature 
that would provide more transparency when it comes to in the 
classroom versus administrative costs in education. Is that the 
answer?
    Is that the way to go, greater transparency of these dollar 
figures to show the American people, in my case to show 
Hoosiers, the incredible statistics that you shared with us in 
your testimony, or is there a better way to go? Should we 
mandate certain metrics of in the classroom versus 
administrative cost, in your opinion?
    Mr. Scafidi. I think transparency is a great thing because 
it lets public school employees, teachers, parents, taxpayers, 
elected officials see the tradeoffs, and then they can make 
better decisions, so, yes.
    Mr. Banks. Do you have any examples of where you have seen 
that type of transparency effectively drive down that startling 
metric that you provided before?
    Mr. Scafidi. Not yet. There are strong forces against 
transparency, so--
    Mr. Banks. What are those strong forces?
    Mr. Scafidi. Often State departments of education, they 
report spending on their website, you know, how much we spend 
in public schools, they often exclude funds. In my State of 
Georgia, we exclude well over $3 billion a year in funding. And 
so, when state legislators are debating education, when the 
newspaper is talking about how much we spend in public schools, 
they report the official number that is over $3.5 billion less 
than the truth.
    And the website is very Orwellian. It has a spreadsheet 
that says here is how much we spend in each district. It has 
the categories. Then, if you scroll down below the spreadsheet, 
it has a list of included funds and a bunch of fund codes over 
there. Then it has excluded funds and a bunch of fund codes. So 
we just exclude funding from the total. That seems silly.
    Mr. Banks. Along those lines, is it your opinion that 
Federal mandates and Federal involvement in K-12 education has 
driven up that ``everything else'' category?
    Mr. Scafidi. If you listen to public school officials at 
the local level, that is the first thing they will say. And 
that appears to be true, yes.
    Mr. Banks. Well, thank you very much. Again, your testimony 
is quite compelling. I hope to share it with everybody that I 
know back home because it makes an incredible case for how we 
can do what we need to do to award teachers the salaries that 
they deserve for the important work that they do. Thank you 
very much.
    I yield back.
    Chairman Scott. Thank you.
    The gentlelady from Washington, Ms. Jayapal.
    Ms. Jayapal. Thank you, Mr. Chairman. And thank you for 
your incredible commitment to this issue for so long.
    I am a mother of a proud public school kid, and I just want 
to say thank you so much to all three of you that have done so 
much work for our public education system.
    Last week, I met with this amazing group of dedicated 
teachers from my home State of Washington, and they showed me 
this very simple but disturbing photograph that echoes what, 
Ms. Weingarten, you mentioned and many of you have talked 
about, which is a thermostat at 52 degrees Fahrenheit when the 
kids came in the morning.
    A teacher at that school, Mrs. Copeland, later showed me a 
picture of her and a student sitting on a lab bench warming 
their feet over a hot plate. That is what this is: a hot plate. 
And she wrote to me, and she said: By the fifth period, I 
didn't care anymore about decorum. We had kids huddled over hot 
plates all day to try to stay and get warm. Sergio came to me 
asking if he could go to another classroom so that he could get 
warm. It about broke my heart. Tommy and I both found blankets 
for our kids, and I brought in any extra warm clothes I had.
    These are our public schools. These are not shelters. They 
are our public schools. And it is just crazy to me that we 
would not be investing everything we can into making sure that 
our kids and our teachers and our communities have the 
resources they need.
    So my first question is to Ms. Weingarten. In your 
testimony, you expose how teachers are often forced to make do 
with inadequate and often very dangerous working conditions. 
Can you tell us why giving teachers more latitude to meet 
children's needs could improve student achievement and what 
that looks like?
    Ms. Weingarten. So, yes. Thank you--
    Ms. Jayapal. Turn on your microphone.
    Ms. Weingarten. Sorry. Thank you, Congresswoman.
    You know, there are actually some studies that show that 
when you have collective bargaining in schools, that teachers 
can actually sculpt the conditions in their schools to what 
their kids need. And, frankly, they do not start with salaries, 
as you have heard before. They start with things like nurses 
and guidance counselors, even though they know that they need 
higher salaries.
    But there is a recent EPI study, which we can put in the 
record, that shows that collective bargaining, especially, 
frankly, with this ability to strike, actually does far more 
than any kind of other market conditions to create the 
conditions in schooling.
    And so what you see, to answer your question directly, we 
see teachers of kids with special needs who are out there all 
the time talking about ensuring that those kids get the 
instructional materials they need.
    We see that, when the debate was raging about the ACA and 
Medicaid expansion, it was superintendents and teachers that 
were out there saying, ``We need the equipment,'' like 
wheelchairs, like other kinds of catheterization equipment that 
Dr. Contreras was talking about so that kids can be educated in 
the mainstream.
    But what happens is that they actually know the needs of 
their kids and want to start with well-being and an engagement, 
and they will often forsake their own salaries in order to 
actually get the needs that kids need.
    Ms. Jayapal. Thank you, Ms. Weingarten.
    I think that was made clear with teacher strikes where 
teachers were not just advocating for their own salaries. They 
were advocating with the community, with their families, for 
all of the resources.
    Ms. King, thank you so much for your moving testimony. I 
hope you don't ever stop being passionate about schools and 
education. It is a blessing for all of us.
    You mentioned in your testimony that, from 2010 to 2015 
low-income student enrollment grew by 4 percent, becoming the 
majority of public school students. Despite the increase in 
low-income student enrollment, Title I funding for schools has 
essentially remained the same. So can you tell me how we are 
supporting today's increasingly diverse learners?
    Ms. King. We aren't. More money doesn't mean that our kids 
are getting educated. As Dr. Scafidi has said on many times, we 
are having more staff and more funding for these schools. Our 
schools are crumbling in the education system. Our schools are 
having more students attend with less money.
    In Title I schools, I am a parent that has had children 
that graduated from a Title I school and a school that I serve 
as a PTA leader right now is a Title I school. And the funding 
that they have doesn't help them with the needs of the children 
in the schools when we are talking about counselors, when we 
are talking about books in the classroom, technology, and any 
and everything that we need for our students is important.
    Title I right now is a big issue across the country with 
funding. And a lot of people think that the more funding that 
you get, that your schools will be successful, and they are not 
because they don't have a lot of funding, as the person to my 
left, Dr. Scafidi, has personally stated that it is working and 
that we have to have some kind of mechanism to make sure that 
it is working.
    OK. So I am nervous right now. I am getting nervous.
    Ms. Jayapal. No problem. You are doing great. I am out of 
time, so let me just say that this is, I think, an incredibly 
important issue in my state. Washington state was actually--the 
state supreme court actually ruled that the state was not 
meeting its constitutional obligation to fund public education 
way back in 2012, and we finally are correcting that situation 
and putting more in, but we need Congress to act.
    Thank you, Mr. Chairman. I yield back.
    Chairman Scott. Thank you.
    The gentleman from Georgia, Mr. Allen.
    Mr. Allen. Thank you, Mr. Scott.
    And thank you, panel, for being here with us. I switched 
chairs and--but I am glad to be able to hear what we are 
covering in this hearing.
    One of the first things that I wanted to clear up was, Dr. 
Scafidi, you indicated in your research that the surge in 
nonteaching staff in our schools, and point out that this surge 
have significantly boosted--hasn't significantly boosted 
achievement. Many staff in nonteaching positions provide our 
schools valuable leadership and services.
    Could you clear up: Are you saying nonteaching staff aren't 
needed, or can you clear that up a little bit, be a little 
clear about what you see--where you see the real problem is 
and, of course, like bus drivers and things like that? Can you 
give us some feedback as far as your research on that?
    Mr. Scafidi. Yes. Absolutely, nonteaching staff are crucial 
and essential, but the issue is in what numbers and in what 
capacities. And so I guess I have to ask: Where does it end? 
That is one reason why I started my data in 1992 in my main 
analysis. Like Ms. Weingarten said, you know, in the 1970's, we 
started paying attention to special needs students, which was 
great and long overdue. And that led to a big increase in 
staff. But it is still going on today, and it is even going on 
literally in the school year right now, which is after my data. 
So the question is, where does it end?
    Mr. Allen. As far as--well, my parents were farmers and 
educators. My dad served on the Board of Education. We lived 
education. Growing up I didn't have a choice. And, of course, 
now, in my role as Republican leader on the Early Childhood, 
Elementary, and Secondary Education Subcommittee, I am going to 
be traveling the country to look at, you know, K-12 education, 
see what is being done.
    But I think, you know, where we are innovating, where we 
are doing the things we need to do, and then certainly, you 
know, what I have learned here today. I mean, it is shameful 
some of the things that we are seeing here today.
    But I do want to congratulate you on our success in 
Georgia. We have had great leadership in Georgia. Obviously, 
one of the fastest growing states in--I mean, we added 800,000 
jobs. GDP, economic growth has a lot to do with education and 
as far as innovation in education.
    You know, one of the things I realized in serving on this 
committee is how do you motivate young people. I mean, this 
one-size-fits-all, top-down approach, this does not seem to 
work. We are seeing that in Georgia, you know, for example, 
themed schools, things like that, that really get students 
motivated.
    Could you give us a little background on how we are 
accomplishing so much in Georgia because, I mean, we have, you 
know, in my district, we pretty much have all new schools. And 
so can you talk about how you have worked in Georgia to make it 
what I think is, you know, one of the best school systems in 
the country right now?
    Mr. Scafidi. Yes. I can talk to you long, but I will just 
tell one quick story. In 2003, I used to have lunch every week 
with Superintendent Kathy Cox, the state school Superintendent. 
I had only been, you know, working for Governor Perdue for a 
couple weeks.
    And she said: Ben, can you ask the Governor if we can move 
this one position in the State Department to be like the AP 
coordinator?
    And I said: Yes.
    And she said: Don't you have to ask the Governor?
    I said: Well, I will ask forgiveness later. I said: Of 
course, he'll support this.
    She said: Are you sure?
    And I said: Yes.
    She said: Well, you know, you have to call the budget 
director.
    And so I pulled out my cellphone, and, you know, I called 
the budget director and said: Can you move one position from X 
to AP?
    So this person, she was a teacher before. She drove around 
to every low-income school in Georgia and said: Here is how 
there is Federal resources--sorry, state resources and AP--
college board resources to put AP programs in your schools.
    And so, in Georgia now, I wrote a paper on this years 
later, disadvantaged students and also minority students are 
more likely to take AP than similarly situated students not in 
those categories. Florida had the same results. They did it 
with Jeb Bush. So, yes, you can do more if you use your 
resources quite well.
    Mr. Allen. Exactly. And that is why I mentioned that, 
again, this top-down, one-size-fits-all concept is not really 
working. One of the biggest complaints that I hear is where we 
have funding for X and the school system needs Y and they can't 
do anything about it. So there is very little room to do the 
kind of things we need to do and innovate.
    My time is up. And I yield back, sir.
    Chairman Scott. Thank you.
    The gentlelady from Georgia, Mrs. McBath.
    Mrs. McBath. Thank you, Mr. Chairman.
    I would like to thank my colleague, Mr. Morelle for 
switching spots with me.
    Mr. Chairman, thank you so much for holding this hearing 
today.
    And I would like to thank the witnesses for being here and 
for their prepared testimonies and your remarks.
    In my home State of Georgia, our Governor Brian Kemp, has 
called for a $3,000 permanent salary increase for certified 
Georgia teachers in his proposed budget. In his State of the 
Union address, he delivered--or excuse me, State of the State 
address he delivered last month, he said, and I quote: To 
enhance educational outcomes and build a 21st century state, we 
must invest in those who educate, inspire, and lead our 
students. To recruit and retain the best and brightest our 
schools, we must remove heavy burdens in the classroom and keep 
teacher pay competitive.
    Now, I believe this is truly a step in the right direction, 
and I applaud our Governor Kemp for making the hardworking 
teachers of Georgia a priority. In 2017, the average teacher 
salary in Georgia was $55,532, and we are paying our teachers 
less than the national average.
    On top of that, in 2015, the Georgia Professional Standards 
Commission reported that 44 percent of the state's public 
school teachers leave the education profession within the first 
5 years of employment.
    To find out why the rate is so high, the Georgia Department 
of Education in 2015 conducted a survey of 53,000 teachers, and 
the study included elementary, middle, and high school teachers 
with varying years of experience. And the results were truly 
striking.
    Two out of three teachers who responded to the survey said 
that they were unlikely or very unlikely to recommend teaching 
as a profession to a student about to graduate from high 
school. The teachers also reported that they feel devalued and 
constantly under pressure. Now, we must address this, and we 
must make sure that we are attracting and retaining the best 
and the brightest educators in our schools.
    My question is for Dr. Weingarten. Your testimony speaks to 
what led to this national movement across the country, and we 
are seeing that very thing now in Denver. Teachers are 
galvanized for increased school support. Can you speak to where 
we are now and the work that is left to ensure the success of 
teachers?
    Ms. Weingarten. So teachers--as you were talking, 
Representative, I was thinking back to when I was the President 
of The Teachers Union in New York City. And Mayor Bloomberg and 
I didn't agree on much, but we agreed that in order to have the 
best and the brightest, there needed to be significant salary 
increases.
    And over the course--we just did an op-ed last year on 
this--over the course of 6 years, we were able to negotiate an 
increase in pay of 43 percent so that people could actually 
live in the neighborhoods in which they taught, which is what 
people want.
    So what you are seeing in--but what teachers will tell you 
is that they are very shy about talking about their own wage 
increases. They would rather work two or three jobs instead of 
talk about that. And it could be psychological. It could be--
you know, whatever.
    But they will tell you there are two things. And the 
research, Ingersoll's research, other research will say: It is 
about the latitude by which to do our jobs, the conditions we 
need to actually meet the needs of children. That is No. 1. And 
No. 2 is, can we actually pay our bills including student debt, 
which is greater and greater, which is why the public service 
loan forgiveness is so important?
    And what you are seeing in all these strikes is that people 
are actually focused on the top-of-the-mind issue. So that is 
why, in Los Angeles, they were focused on nurses in schools, 
guidance counselors in schools to meet mental health and well-
being issues, that the issue of people feeling afraid, as you 
know so well, about the safety of communities.
    So but it is really, what are the conditions I need to do 
my job? And, second, am I being paid enough so that I can 
afford my student loan issues as well as my own family's needs?
    Mrs. McBath. Thank you so much. And I appreciated hearing 
your remarks about the lack of state funding for public 
education after the Great Recession.
    And, Dr. Contreras, my question for you, could you talk a 
little bit more about how underinvestment in the public 
education system impacts the economy?
    Ms. Contreras. I believe that we know that the academic 
outcomes of students is related to the education of the parent 
and the socioeconomic status of the parent. So, when parents do 
not have jobs and we are not investing in the community and in 
schools, you continue to see the sort of persistent 
underachievement from generation to generation. It is important 
that we address this situation, or we will be talking about 
this for the next 50 years.
    Mrs. McBath. Thank you so much.
    Chairman Scott. Thank you.
    The gentleman from Kentucky, Mr. Comer.
    Mr. Comer. Thank you, Mr. Chairman.
    And, Dr. Scafidi, there is no question that everyone on 
this committee in both parties want to support every child in 
public education, and we want to do everything we can to change 
the schools that are low performing. In your experience, what 
do we need to know about what works in improving low-performing 
schools, and how should that inform policymakers at all levels?
    Mr. Scafidi. We should be very humble. I think in the large 
part, we don't know how to turn around low-performing schools. 
And even if there is a study that says this one program worked 
with these two schools, that was idiosyncratic. You know, you 
had one really good guru go in and help turn around those 
schools, but is that person replicable? So I would be very 
humble about having any programs at any level of government to 
turn around, you know, low-performing schools.
    Mr. Comer. As you know, Congress passed the Every Student 
Succeeds Act in 2015. However, the role of testing continues to 
be debated. What advice do you have for us as we consider the 
role assessments should play in evaluating school performance?
    Mr. Scafidi. There is a lot of new research in the last few 
years, very new research that the state-based tests, you know, 
states--tests created by states or Consortium of states are not 
super predictive of later-life outcomes for students.
    So I don't know the exact flexibility ESSA gives on 
testing. I am not an expert on that flexibility. But I think 
states should look to switch to more norm-referenced testing, 
you know, using tests that have been around a long, long time 
instead of these state-based tests. It seems like states aren't 
great at making their own tests.
    Mr. Comer. Right. And let me say this: I went to public 
schools. My wife went to public schools. And our three children 
now go to public schools. And it does seem that there has been 
a big change in teaching from the time when my wife and I were 
in school compared to our students today. And a lot of people 
wonder if we are, in public education, spending too much time 
teaching for the test instead of teaching basic skills. Is that 
something that you have encountered in your research?
    Mr. Scafidi. Well, I have encountered that in real life. 
For nine years, we lived in a rural area in Georgia, and about 
day three, my kids, when they were in second grade, my two 
oldest, they were scared of something called the CRCT, the 
Criteria-Referenced Competency Test.
    But here is the rub: I don't think policymakers, the 
business community, parents want to go back to the 1990's, 
where we just sort of give a bunch of money to the public 
education system and say, ``We are going to trust you.''
    I think schools are going to be held accountable one way or 
the other, and it is either going to be through some kind of 
centralized system, like we do now, or it is going to be 
through a decentralized system where parents hold schools 
accountable directly when they make choices of where to go to 
school. And we have just got to pick as a society what do we 
think is best for students.
    Mr. Comer. And I certainly support public education and 
have a lot of respect for teachers. I believe classroom 
teachers are underpaid when you consider the education that 
they are required to have to teach as well as the number of 
students, and they can't pick or choose which students they 
want to teach like in many private schools. Public school 
teachers inherit whatever they are given. And because of that, 
I have always had great respect for teachers. My mother was a 
public school teacher.
    One of the things that I have noticed with respect to 
teachers' pay in the school systems in Kentucky, in my 
congressional district, and Congressman Guthrie touched on this 
a little bit, is the fact that the budgets have actually 
increased even though teachers pay, classroom teachers pay, has 
not increased significantly.
    And it appears in most school systems, in Kentucky anyway, 
that the highest salaries, aside from the superintendent, are 
in the central office. And I have always believed that--and 
when I say ``central office,'' I am talking about 
administration. I have always believed that the three highest 
paid employees in the school system should be the 
superintendent, the principal, and the classroom teachers, 
because many classroom teachers are like me in business or most 
Americans want to make the most money. And I feel like we need 
to reprioritize where we pay the highest salaries in public 
education.
    Mr. Scafidi. I think if we had a choice-based system of 
education, the compensation across different types of public 
school employees would be very different. And I think their 
most important staff, the teachers, would be the big winners.
    Mr. Comer. Thank you, Mr. Chairman.
    I yield back.
    Chairman Scott. Thank you.
    The gentlelady from Pennsylvania, Ms. Wild.
    Ms. Wild. Thank you, Mr. Chairman.
    Thank you to all of you for being here to address this very 
important subject.
    I am the mother of two children who are now in their 20's. 
Both of them were educated in a very fine public school 
district in Pennsylvania, which happens to be immediately 
adjacent to a very distressed school district. And I worked in 
the school district that was distressed. I went home to the 
school district that was better funded and where the children's 
outcomes were significantly better. So I feel as though, at 
least from the outside, I have seen it.
    Ms. King, I also want to thank you for your role with the 
PTA. I was very active in my children's school's PTO 
organizations throughout their elementary school years until my 
children banned me from ever entering their school when they 
got to middle school, at which point I stopped. But it is 
important work that is done.
    There are so many questions that could be asked here, but I 
want to direct my first question to you, Dr. Contreras, because 
by my count, you have either taught or been in five different 
school districts over the course of your career. Is that 
correct?
    Ms. Contreras.
    [Nonverbal response.]
    Ms. Wild. Yes?
    And Illinois, Georgia, Rhode Island, New York, and North 
Carolina?
    Ms. Contreras.
    [Nonverbal response.]
    Ms. Wild. So I assume you have seen some schools that have 
better funding than others. Is that fair to say?
    Ms. Contreras. With respect to facilities, I have, yes.
    Ms. Wild. Ok. Can you speak just to that issue then, the 
issue--what you have seen based on your personal experience in 
five different school districts about how the students do when 
they have better facilities?
    Ms. Contreras. So I will say that I have dedicated my 
career primarily to working in poor communities, but there are 
some states that do contribute more to funding their capital 
needs. So, in Georgia, I did see that the school facilities 
were much newer and that students had a greater opportunity to 
participate in career technical education programs because of 
the educational suitability.
    So it wasn't just a matter of maintaining the buildings; 
they actually could participate in programming that helped them 
with career education and, you know, career college readiness. 
I just implore us all to not simply look at data, which is 
important, but also to believe what we see what our own eyes 
and hear from the one-sixth of U.S. population that spends 
eight hours in our schools every single weekday who are telling 
us that they are struggling with dilapidated schools, with 
significant environmental issues, and that is what I have seen 
primarily throughout my 26, 27 years in education.
    Ms. Wild. And do you consider digital connectivity to be 
part of a school's infrastructure?
    Ms. Contreras. It is absolutely necessary, yes.
    Ms. Wild. And have you taught in school districts where the 
students did not have access to computers or laptops or 
whatever?
    Ms. Contreras. Absolutely. So I am in a district where we 
have 100 percent connectivity, but the students do not have 
devices.
    Ms. Wild. And what about those same students when they go 
home? Do you have any kind of information, even anecdotal, 
about their ability to access the internet and other learning 
tools?
    Ms. Contreras. We know that quite a few of the students do 
have internet connectivity or access to the internet. We don't 
know about their access to devices, but in primarily poor 
areas, this is going to become an issue for our families. So, 
not only do they not have access in school in many communities, 
they go home and they also do not have access, widening the 
opportunity gap for these children.
    Ms. Wild. Thank you.
    I have one series of questions--or one question for Dr. 
Scafidi, if I may. Your written testimony and your testimony 
today talks about the big increase in all other staff. What 
kinds of employees do you include in all other staff? Do you 
include librarians?
    Mr. Scafidi. Yes.
    Ms. Wild. And school psychologists?
    Mr. Scafidi. Yes.
    Ms. Wild. Guidance counselors?
    Mr. Scafidi. Yes.
    Ms. Wild. Reading specialists?
    Mr. Scafidi. Yes, ma'am.
    Ms. Wild. Tutors?
    Mr. Scafidi. Yes, ma'am.
    Ms. Wild. School bus drivers?
    Mr. Scafidi. Yes, ma'am.
    Ms. Wild. So all of those fall into that all other staff 
category, as well?
    Mr. Scafidi. Correct.
    Ms. Wild. Do you dispute that any of those categories are 
necessary in today's schools?
    Mr. Scafidi. No, I do not.
    Ms. Wild. Thank you. That is all I have.
    Thank you, Mr. Chairman.
    Chairman Scott. Thank you.
    The gentleman from Texas, Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    I appreciate this hearing, and this is certainly an 
important topic. I know, in my time in the state legislature, I 
was a strong advocate for increasing teacher pay, and it was 
incredibly frustrating to me to see what Dr. Scafidi you really 
pointed out here in your testimony today. And I just--and I 
think there is confusion about this. I mean, even in this 
hearing, I hear confusion about this. I mean, so, in 1992, we 
were spending $5,626 per child, and then, in real dollars in 
2016, we are now spending $13,847. So, in real dollars on a 
per-child basis in public education in America today, we are 
spending a lot more than we were when I went to public school, 
right? Is that a fair statement or surmise from your testimony 
so far?
    Mr. Scafidi. That is correct.
    Mr. Taylor. Ok. So we are spending a lot more money on 
public education on a per-child basis in real dollars since 
when Van Taylor was in public school back in the eighties, 
right? So what is frustrating to me is that teacher pay is 
basically flat. So we are spending more, but teacher pay is 
flat. And, again, there is confusion about that. I mean, even 
in this hearing, I have heard people saying, you know, sort of 
saying we are cutting--we are not investing enough. Well, we 
are investing more and more and more, but it is not going to 
the teachers. And I was very frustrated at my time in the 
legislature. I was very happy that this legislative session the 
Governor of Texas and the Speaker/Lieutenant Governor made it 
an emergency item and said, ``This is something really 
important; we are going pay teachers more,'' as they try to 
restructure education.
    So, do parents--Dr. Scafidi, in your experience, do parents 
understand that the funding is going up, but it is not going to 
the teachers? I mean, it is clear to me that some of my 
colleagues don't understand that, but do parents understand 
that in your experience and your time in Georgia or elsewhere?
    Mr. Scafidi. In my experience, you know, talking to parents 
when I was working at the state level, but also just in my 
kids' public schools parents do know about the increase in all 
other staff, and they talk about the number of assistant 
principals, you know, curriculum specialists curriculum 
directors. They do witness that. I am not sure they know about 
the increase in real spending.
    Mr. Taylor. Why is that? I mean, I am very blessed to 
represent some really phenomenal public schools in my district, 
and I refer to them frequently as the crown jewels of my 
community, and they are clearly the driving force for why I 
represent a successful district or why I have a successful 
community. We have got great public schools. But even then, I 
find lot of confusion about the actual funding per child. There 
is a lot of confusion about what is spent. I hear people that 
really should know better saying we are spending $7,000 a kid, 
or we are spending--and then when you do the math, you do the 
total dollars divided by the number of kids and the per capita 
it is very different. And, actually, you spoke a little bit 
about that earlier about excluding certain numbers, excluding 
certain funds. Can you speak more about that in your 
experience?
    Mr. Scafidi. Yes. I will tell another true story. One time 
I was sitting at my office, you know, we had caller ID, and the 
phone rang. And it said call transferred from the president of 
the university's office. I was like: Oh, no, what did I do now?
    I answer the phone.
    They said: Call transfer.
    I said: Ok.
    And the person said his name--I thought this was made up--
he said his name was Mick Zais, the state school Superintendent 
of South Carolina. And so I am quickly googling it because I 
thought it was one of my friends pranking me, but that is a 
real person actually, and I believe he is up here now.
    He said: This report, Dr. Scafidi, and it says we are not 
telling the Feds how many people work in our public schools.
    I said: Well, yes, you guys have not told us how many 
people work in your public schools for decades.
    And he said: What? I am going to fix that.
    I said: Ok.
    So he said: What do I do?
    I said: Have a transparency button on the home page of your 
DOE website at the state level and just have three or four 
graphs that are very easy to understand, show the increase in 
spending, show the increase in staff relative to the increase 
in students, things like that, make it really simple so that 
parents and taxpayers and elected officials can know this.
    And he did that.
    But then he left office, and I went to go get that link 
because I was going put it in a paper, and the link was there, 
but it said the page had been taken off. We just need very 
simple transparency, and then people will understand.
    Mr. Taylor. Sure. And I appreciate this hearing and this 
purpose because the key to great education is parental 
involvement.
    And, Ms. King, I appreciate your involvement as a parent. 
The PTA members are so important for our public schools in 
Collin County, and it is local control, and it is great 
teachers. And if you are not paying teachers enough, you are 
not going to have great teachers. So I think it is really a 
question of local districts making the investment in teachers.
    Mr. Chairman, I yield back.
    Chairman Scott. Thank you.
    The gentleman from New York, Mr. Morelle.
    Mr. Morelle. Thank you, Mr. Chairman, first of all, for 
holding this critically important hearing and for all the work 
that you are doing and also thank you to the panelists for 
being here. All of you make significant contributions, and if 
it is ok I will give a special shout out to Ms. Weingarten for 
her long leadership in my home State of New York and all the 
incredible contributions she has made and is now making 
nationally.
    In my district Rochester, New York, I as a state 
legislator, authored two different phases of school 
modernization totaling probably about $8 million in 
construction dollars, something I am proud of but really 
scratches the surface of what we need to do in one urban school 
district in upstate New York, which has just shy of 30,000 
students.
    But school modernization and school reconstruction is 
beyond just brick and mortar, and I am sort of interested, Dr. 
Scafidi, in some of the things you said, which I found 
fascinating, but I actually take a different--I guess reach a 
different conclusion than you might or others have. I think it 
is important to look at the expansion of nonteaching personnel 
in the schools, but to me the importance of that is sort of 
drilling down and figuring out why. People don't just hire 
folks for no reason, and I thought, Ms. Weingarten, your 
comments relative to it were right on point in the sense that 
there are other needs now, and that is sort of what I want to 
get into.
    More and more, in areas of high poverty in particular, 
there are multiple needs that children face, family needs, 
needs that the schools weren't intentioned to have to deal with 
nor do they necessarily have the expertise or the authority. So 
bringing more services into the schools where kids, frankly, 
are a lot of the day seems to me part of the rationale for the 
increase in the nonpedagogical staff there. So that is just my 
comment about the testimony that you gave, and I think it is 
important, but I reach I think in my mind a different 
conclusion.
    Child poverty in Rochester ranks third in the nation, and 
something that we are--even as we are rebuilding the schools.
    But I wanted to ask Ms. Weingarten, if I might, in your 
testimony, you talked about the importance of fully funding 
Title I to support schools that serve poor students. And I just 
wanted to get your thoughts as I was talking about health 
services, social services, human services, educational service, 
all sort of combining, how important are those resources? When 
you think about particularly low-income schools, just your 
thoughts on trying to combine those services, integrating them 
and how important that is in the welfare and the development of 
children.
    Ms. Weingarten. So, No. 1, I want to give a shout out to 
Chairman Scott and those who did ESSA because they read and saw 
the research then, and that is why they kind of reenvisioned 
and recreated Title IV of ESSA, which is specifically intended 
to fund these things. The Aspen Institute and frankly any 
school teacher--Congresswoman Hayes will tell you this, as 
well--we have shifted to thinking about the well-being of 
children as first and foremost. You need to meet the needs of 
children before you can get to their instructional needs, and 
so that is part of the reason why schools that have these 
panoply of services, community schools, mental health services, 
physical health services, after-school childcare are really 
important in terms of not just custodial care but to the social 
economic well-being of kids, and so that is absolutely 
imperative. There is a lot of research around that.
    Mr. Morelle. I very much appreciate that. I also, it seems 
to me--and I had the benefit of being married to what is now a 
retired middle school teacher, and I think, no disrespect to 
elementary or secondary education teachers, but I think there 
is a special place in heaven for middle school teachers.
    But I did want to ask Ms. King, and thank you for your 
testimony, but in your mind, what does effective family 
engagement in the schools look like?
    Ms. King. Family engagement--
    Mr. Morelle. Your microphone, I'm sorry.
    Ms. King. I am sorry about that. Because I want to read 
something that we have from National PTA. National PTA believes 
that there are four guiding principles to effective family 
engagement. First is inclusive, so that all families are valued 
and engaged. Second is individualized to meet the unique needs 
of each family and student. Third, it is integrated into the 
school system as part of the job responsibility, calendars, and 
instructional priorities. Last, it is impactful so that all 
families have the information and tools to make their child's 
potential a reality.
    So, as a parent, what that says to me is that family 
engagement is a two-way communication. It empowers and it 
engages between families and the schools. Families no longer 
are being viewed as an enemy but as a child's partner with the 
teachers and the staffs inside of the schools. And by engaging 
and empowering families and parents in a meaningful way and 
including families on decisionmakings on the committees, not 
because you were told to but because you want to, says a lot 
and that you are valued and that your voice matters. So 
anything that involves family engagement is a plus for a 
school.
    Mr. Morelle. Thank you.
    Thank you, Mr. Chairman.
    Chairman Scott. Thank you.
    The gentleman from Texas, Mr. Wright.
    Mr. Wright. Thank you, Mr. Chairman.
    I want to thank all of you for being here today, and I want 
you to know that I, too, get a little passionate about this 
issue. My late wife was a school teacher and a darn good one. 
My dad was a school teacher, went back and got his masters in 
counseling and guidance and became a high school counselor. I 
have always supported public schools. I served on the Board of 
Directors of the Education Foundation in Mansfield, Texas. It 
was a great experience. We engaged the private sector, engaged 
businesses, and raised and continue to raise millions of 
dollars and gave away millions of dollars for teacher grants in 
the Mansfield School District and greatly enhanced what they 
were able to do because I can tell you that there were times 
that my wife and I dipped into our own personal bank account to 
benefit her classroom, and I think that story plays out all 
over America with every public school teacher probably in the 
country.
    But I also get passionate about when school children are 
denied the quality education they could have because of bad 
decisions and sometimes downright stupidity of adults when it 
comes to allocating education dollars. And, Dr. Scafidi, the 
information you provided today is disturbing, although I can't 
say I am shocked by it. But one of the most salient facts is 
the fact that, since 2016, the majority of public school 
employees in the United States are not teachers. That kind of 
hits home with me and that we have had these increases in 
spending across the country that didn't go to teachers, didn't 
go to the classroom, and I know that there is a lot of jobs in 
every school district that are important to the education of 
school children. I am not going argue that point, but I would 
say that when the majority of employees are not teachers, it is 
upside down because they are the ones that are delivering more 
than anybody else the education. They are the ones that are 
spending time with those students. And so I share my colleague 
from Collin County's frustration with the level of spending 
that goes to children, and I will tell you that if school 
districts are--and I know that a lot of this 736 percent, you 
know, nonteacher employees are administrators, and I am not 
here to beat up administrators. I know they are important, too. 
But I also know there has been a huge spike, a huge increase in 
the number of administrators vis and vis teachers. Would you 
know what that number is or what that percentage is?
    Mr. Scafidi. I do not.
    Mr. Wright. Ok. Well, we both know it is a significant 
number. And here is the thing--because all of us on this 
committee want a quality education for every child in America; 
there is no question about that. How we deliver that is 
something we can have an honest debate about, but if a school 
district or a state is choosing to spend their money on more 
administrators instead of teachers, that is a bad decision in 
my opinion. If they are spending more money on administrators 
for additional administrators than fixing the plumbing in their 
buildings, that is a bad decision in my opinion.
    So my concern with what we are talking about today, and, 
Mr. Chairman, I applaud the good intentions of what you are 
trying to achieve is there is no accountability here. And we 
are going to wind up subsidizing the bad decisions that have 
been made when it comes to the allocation of education dollars 
at the local and state level.
    As Mr. Taylor just mentioned in the State of Texas, we have 
right now our legislature is meeting, and the state Senate, 
they have already filed a bill to increase teacher pay by 
$5,000 a year. That is a good thing. But this is what we are 
talking about today, these grants, do not do anything to impact 
the performance nationwide of students, and that should be the 
goal: to improve student performance.
    And let me tell you: I get it as far as how crumbling 
infrastructure can affect the environment of people, student 
and teacher alike. I was in high school before I ever attended 
a school with air-conditioning. And if you haven't sat in a 
classroom in August in Texas, believe me, you will appreciate 
air-conditioning. So I get it, believe me. But there is no 
accountability here. And the last thing Congress should be 
doing is subsidizing bad decisions that have been made at the 
local level. And I have a real problem with that.
    Let me ask you, based on all the studies you have seen, is 
there any correlation between student performance, improvement 
in student performance, and additional administrators?
    Mr. Scafidi. Not to my knowledge.
    Mr. Wright. Is there a study that--I mean, intuitively we 
all know this, but is there a study that would indicate any 
correlation between student performance and the quality of the 
infrastructure of a classroom or school building?
    Mr. Scafidi. The evidence on that is mixed, and I think 
that is because of what Dr. Contreras said is--in some areas, 
we need more and better facilities, and some we don't, so--
    Mr. Wright. Well, I would certainly, you know, advocate for 
air-conditioned buildings in Texas based on my own experience.
    Chairman Scott. The gentleman's time has expired.
    Mr. Wright. Ok. Thank you, Mr. Chairman.
    Chairman Scott. Thank you.
    The gentlelady from Connecticut, Mrs. Hayes.
    Mrs. Hayes. Thank you, Mr. Chairman.
    So many things. You put an educator on the Education and 
Labor Committee, you should see the notes I have on this paper. 
So I am going try to reel myself in so that I don't run down my 
time. I didn't realize that one of my colleagues that I spoke 
about earlier Shawn Sheehan from Oklahoma is in the room. I am 
glad you are here.
    We hear lot about regulations, and, Mr. Scafidi, you talked 
about how schools should be free from regulation. So not a 
question, a statement. I am glad that my colleague Marcia Fudge 
brought in the fact that these are not regulations; these are 
laws. That is what I was getting to. So just rest on this for a 
minute: If you had to rank order which laws you would move out 
of the way so that schools of choice could move along more 
quickly and move some of the regulations, would it be the laws 
that provide equitable access to women and girls under Title 
IX? Would it be the laws that require that we provide equitable 
access for students and children with disabilities under IDEA 
or ADA? Which student protections are we willing to gut in 
order to make these schools a lot more profitable?
    The next thing I would ask you, and Mr. Scafidi's testimony 
argues that $41 billion--a $41 billion dollar investment would 
give over 5 million children scholarships to attend private 
schools of their choice. My question for everyone on the panel, 
and it doesn't require an answer because I think it is self-
evident, what happens to the other 45 million children that 
attend our public schools? What happens to those kids?
    So, finally, I come from a state where we have the largest 
equity gap in the country. My district houses some of the 
wealthiest and some of the poorest communities. We are talking 
about bringing it back down to the local level. One thing that 
I will agree with Mr. Scafidi on is that we need to listen to 
teachers. And the people who are closest to the pain are 
closest to the solutions. We have some valuable information to 
provide, so I guess there is some value in having a teacher on 
this committee.
    What happens if there is no school in the area that I am 
living in that decides to cater to students with disabilities? 
How does a student in a city like Waterbury, Connecticut, not 
get left behind in this type of a system? And then I think more 
importantly, because this is the thing we haven't talked 
about--we talk about the connection with, Ms. King, you talked 
very eloquently about the role of parents and the role of 
communities. What happens to a kid who doesn't have a parent 
who knows how to advocate for them? Anyone who has heard me 
speak knows that my grandmother raised me. My grandmother 
didn't drive. She had a fifth grade education. My mother was an 
addict. Am I not entitled to a high-quality public education? 
Who is advocating for me and children like me if what we are 
saying is only the people with the loudest voice and the 
biggest megaphone and who live in the best communities should 
have the best public education? Isn't it our role as 
legislators, as educators, as leaders to advocate for the 
people who don't have a voice? Just yes or no.
    Ms. Contreras. Yes.
    Mrs. Hayes. I am sorry because I, too, Ms. King, am very 
passionate about this. So, as we are talking about these 
things, I hear everyone talk about the level of respect they 
have for teachers. Everyone has a teacher in their family. So, 
if we respect teachers and we respect public education, why 
aren't we looking at it as an investment? And I think the thing 
that we are all confused about in this room--I agree with my 
colleague; there is some confusion, but about something very 
different. The confusion lies in the fact that we are thinking 
that it is one or the other: pay teachers or improve 
facilities. I want both. I want both. It is not a tradeoff. We 
are not talking about hire more staff or improve facilities and 
conditions. I want both. We are talking about this from an 
economic standpoint in dollars and cents. That is not what 
education looks like.
    This is not an economist problem, and I appreciate what you 
bring, but if we are looking at it as a business, if we are 
treating education and schools like corporations, then I would 
say we also need a $2 trillion dollar bail out. We need for 
government to save teachers, to save schools. We would like 
that bail out.
    In this last tax plan, the $250 that I used to be able to 
claim as an educator to offset the thousands of dollars that I 
spent in my classroom was taken away. So, if you truly value 
education and you truly value teachers, then why are we 
continuing to take away and saying: But we appreciate you.
    This is a profession. This is not mission work. We deserve 
the same rights, protections, benefits--fringe benefits, don't 
even let me go there--as every other profession.
    Mr. Chair, I yield back.
    Chairman Scott. Thank you.
    The gentleman from Pennsylvania, Mr. Meuser.
    Mr. Meuser. Thank you, Mr. Chairman.
    Thank you all very much, an extremely qualified 
knowledgeable panel. I thank you. I am certainly getting 
educated here myself, so it is very appreciated.
    As my friend just mentioned from Connecticut, a good 
teacher has a profound effect on our children. Great teachers 
have a profound effect on our society. My three children, one 
in high school, public high school, and my daughters are older, 
but I would ask them at least two or three times a week: How 
are your teachers? Tell me which one of your teachers are 
great, which ones are good, and which ones maybe not so much.
    It is probably one of the most important things outside of 
parenting. So we certainly all agree with that.
    But I also believe, and I think we would agree that this is 
more about students, not so much, you know, the teachers and 
the staff. So I certainly believe teachers deserve to be paid 
very well. I think our young people should have modern schools. 
We are an affluent society for the most part, and I think these 
modern schools should certainly exist in every school district. 
That should be without exception, and that I find unacceptable 
when that is not the case.
    We do, however, must also have respect for the taxpayers 
that expect results and expect achievement in our students due 
to the high level of spending that does, in fact, take place. 
There have been over the last 15 years Federal increases--and 
the numbers are the numbers--have gone up over 30 percent of 
Federal dollars. In Pennsylvania, the state general fund 
increases hundreds of millions every year. We have a school 
property tax situation in Pennsylvania that is getting to be 
unmanageable for many taxpayers. School property taxes just 
going through the roof, forcing people to move, many retired 
people. Pensions, pensions are something that certainly comes 
up and needs to be managed better, and it is billions of 
dollars in Pennsylvania alone. And this issue comes up with the 
growth of nonteacher staff. I agree some is necessary, but I 
think we might all agree probably not all. So, and then, when 
Mr. Scafidi brings up that 37 percent increases per student 
since 1992 after inflation adjustment--so now granted computers 
cost more than notebooks, and, you know, I get all that, but we 
have got a lot of money going into this very important 
investment.
    So my question, and I will start with Mr. Scafidi is, are 
our children now receiving a better education than 20 years 
ago?
    Mr. Scafidi. In terms of national test scores, it doesn't 
appear to be so. Just a little history, from 1970 to 2000, 
actually public high school graduation rates fell in this 
country in a very stark way, but in this century, they have 
actually come back up. So, in that respect, things have 
improved, but, you know, so we are kind of slightly higher than 
we were in 1970 now, even though we are spending a whole lot 
more money.
    But you would expect the high school graduation rate to go 
up given changes in the economy because there has been a big 
return to high-skilled jobs. So more people--students on their 
own should be rationally choosing more education. So, on 
balance, I think the evidence is weak that schools are a lot 
stronger than they were decades ago.
    Mr. Meuser. What about versus other countries? I have seen 
the data, seen the rating systems. I am asking your opinions.
    Mr. Scafidi. In terms of if you compared the U.S. compared 
to other rich countries, we are very mediocre on achievement.
    Mr. Meuser. Ok. Why do you think that is?
    Mr. Scafidi. Lots of things. I mean, definitely it is 
probably culture, but also I think we could be getting more for 
our education dollars in our current education system if we 
change it.
    Mr. Meuser. Ok. And my other question is really to the full 
panel, if I could. Is there a model that exists out there in a 
particular state or school system that one could use to improve 
our overall system? And overall question is, is there a better 
way? Is there a better way? I leave it to the panel, but I will 
start with you, Mr. Scafidi.
    Mr. Scafidi. Start with?
    Mr. Meuser. The question is to you, is there a model that 
you admire and should be followed?
    Mr. Scafidi. I think Arizona and Florida have increased 
choice significantly. They still don't have a whole lot when 
compared to other countries that have choice, but their NAEP 
scores gains have been impressive.
    Ms. Weingarten. So I would disagree with Dr. Scafidi. I 
would just actually look at Massachusetts. If you look at all 
the states in the nation, the state that has actually done more 
in terms of investment on both standards and the teaching of 
standards, not the testing, is Massachusetts, but I would also 
go back to the fifty some odd years of Title I, the Johnson 
program, the Kennedy-Johnson program against poverty. And what 
you see is a huge increase in achievement of kids who are 
underprivileged in the first 25 years when you saw the kind of 
spending that was done at that time, and then you saw somewhat 
of a stagnation because of the fixation on testing and 
accountability as opposed to the investment that Representative 
Hayes was talking about. And what your colleagues did with ESSA 
led by Mr. Scott and others was to try to get to that 
flexibility on a local level to mimic--to try to replicate the 
results that we saw in the first 25 years with having 
appropriate oversight, and what you are starting to see is an 
increase again in graduation rates particularly in the C-tech 
programs. C-tech programs where you have real engagement with 
students you see two things. You see increased graduation 
rates, and you see lots of kids who go to career technical 
education also then go to college.
    Mr. Meuser. Thank you.
    Ms. Contreras. Do you want--
    Mr. Meuser. Sure, if you wouldn't mind.
    Chairman Scott. Briefly because the gentleman's time has 
expired. Very briefly.
    Ms. Contreras. Thank you. I believe that if we continue to 
invest in our teachers through fair compensation and also 
making sure they have mentors and professional learning 
opportunities, if we provide wraparound supports for those 
teachers so that they can teach--and I just want to clarify 
that each state categorizes licensed professionals differently. 
So, in the State of North Carolina, a homebound teacher who is 
a teacher who teaches students every day is not categorized as 
a classroom teacher, but they are still a teacher. That is true 
of the social workers or the counselors. So 73 percent of all 
of our staff are teachers, and TAs and supporting students 
providing direct services.
    So I believe the more we provide support for teachers and 
leaders, that is the model for improving outcomes for students 
while we simultaneously provide wraparound services in the form 
of making sure that we continue to fund food programs for these 
children, making sure they have physical and mental health 
programs in schools, and making sure they have social workers, 
counselors, and other support staff.
    Chairman Scott. Thank you. The gentleman's time has 
expired.
    The gentlelady from Illinois, Ms. Underwood.
    Ms. Underwood. Thank you, Mr. Chairman, for holding this 
hearing.
    Federal investment in public schools is absolutely 
essential. And in my community in Illinois, we also have higher 
state and local taxes that goes toward funding our amazing 
public schools like Neuqua Valley High School where I went to 
school. But when I was home last weekend, I heard from so many 
of my neighbors whose tax bills skyrocketed this year because 
of the Republican tax law.
    The Republican tax law limited the state and local tax, or 
SALT deduction, which helps offset the taxes we use to pay for 
public schools. Our community doesn't mind paying our taxes, 
but we expect a return on our investment. We want our tax 
dollars going to our children's schools, not to tax cuts for 
corporations.
    Ms. Weingarten, can you please describe how limiting the 
SALT deduction impacts public schools especially in states like 
Illinois that have higher local taxes to fund public education?
    Ms. Weingarten. So, thank you, Representative Underwood, 
and what we have seen for the first time in the Tax Code is 
that the states that actually thought about the Lockean social 
good, social contract compact are now being hurt because of it. 
So that states that actually invested in public safety, safe 
streets, and public education, and public services where their 
constituents paid state and local taxes for that, they no 
longer--they now are subject to double taxation on that. And 
that we are seeing that in California, in Illinois, in New 
York, in Connecticut, and in New Jersey. And, you know, so 
there were real losers in the last tax bill. That was not 
simply that the rich got richer, but that those states that 
actually believed in that are seeing real limitations.
    New York, for example, there is about a $2 billion dollar 
drop in revenues. And one of your colleagues earlier talked 
about an increase in revenues in some of the other states, but 
in the states that actually really made this commitment, there 
is drop, and many of us are trying to see if we can go back at 
this because this is really a defiance of federalism.
    Ms. Underwood. Some versions of the Republican tax law also 
eliminated tax deductions for teachers who spend their own 
money to buy classroom supplies, as my colleague just outlined. 
Thankfully that provision was not in the final law, but placing 
this financial burden on teachers is not sustainable long-term. 
Ms. Weingarten, almost every public school teacher pays for 
classroom supplies out of their own pocket, right?
    Ms. Weingarten. Yes. There is all these studies that show 
that, on average, it is about $480. For Title I teachers who 
actually teach poor kids, it is higher. And you will hear many 
stories from myself and others about the thousands of dollars 
that we have spent on our kids.
    Ms. Underwood. Yes. Now more than ever it is clear that 
students and teachers need support from the Federal Government. 
Last month, I sent a letter to the IRS asking them to help 
families in our community and across the country who are being 
hurt by the limited SALT deduction.
    In addition, though, the Republican tax law, as you 
outlined, does need a legislative fix from those of us in 
Congress. As my colleagues and I work on legislation to stop 
the limited SALT deduction from hurting students and teachers, 
in your opinion, and this goes to the panel, what other fixes 
to the Republican tax law should we be looking at? And we can 
start with Dr. Contreras.
    Ms. Contreras. I am sorry. I would have to supplement the 
record. I don't have the information.
    Ms. Underwood. Thank you. Ms. King?
    Ms. King. I don't have any information, as well.
    Ms. Underwood. Ok. Sir?
    Mr. Scafidi. I am not an expert on tax policy.
    Ms. Underwood. Ok. Ms. Weingarten, did you have anything 
else to add?
    Ms. Weingarten. So what I would add, Representative 
Underwood, is there are--you know, we went into huge deficit 
spending to create this artifice of trickle-down economics. 
What happens if some of that got moved to the spending of 
infrastructure like Representative Scott and others, Chairman 
Scott and others, have suggested. The kind of real priming the 
pump that would do if we actually took a trillion dollars that 
went for tax cuts and moved them to the kind of spending that 
Chairman Scott and others are talking about that would create 
good jobs all throughout the country that would deal with the 
crumbling infrastructure not only in our schools but throughout 
our society, and it would actually create a real economic 
engine.
    Ms. Underwood. Ma'am, as you describe it is reinvestment in 
our local communities.
    Thank you so much. I yield back the remainder of my time to 
you, Mr. Chairman. Thank you.
    Chairman Scott. Thank you.
    The gentlelady from Nevada, Mrs. Lee.
    Mrs. Lee. Thank you, Mr. Chairman, for holding this hearing 
on underfunding public schools and how it shortchanges students 
in America. I represent a large part of the Clark County School 
District in Nevada, one of the fifth largest school districts 
in this country. We have infrastructure challenges of somewhat 
a different sort. Average class sizes in our school district 
are the largest in the country at 25.86 students per teacher; 
230 of our 336 schools are at or above capacity; and 24 schools 
are year-round; 21,000 students now are forced now to take 
online classes. All the while, our school district projects 
$8.3 billion is needed for capital improvements, not including 
deferred maintenance. And I want to thank all of you for first 
of all your commitment to education, commitment to our 
students, and I want to ask Ms. Weingarten, given the chronic 
underfunding of education can you address how inadequate 
funding of schools exacerbates overcrowding and how this 
impacts students' success?
    Ms. Weingarten. So, as you just talked about, 
Representative Lee, when you have that level of overcrowding in 
a school, there are lots of different impacts to it. No. 1, the 
kind of courses that Dr. Scafidi talked about--look, I taught 
AP government. I taught my Title I kids bioethics. You are not 
going to be able to have the space in a school to be able to do 
those classes, and because they may not be part of the core 
instructional requirement to get to a diploma, so they will 
always fall off. No. 2, band, music, those kinds of things. So 
course electives that are how kids--why kids actually come to 
school, you are not going to have. No. 2, the issues about 
infrastructure, both technology as well as crumbling 
facilities, very much impact kids. Take the health and safety 
issues of mold, of ventilation, that for many kids who have 
respiratory illnesses, that really impacts kids.
    And then the issue that Representative Morelle raised 
earlier, if you actually can--and that Dr. Contreras raised--if 
you actually wrap services in a school, you need some places 
for those medical services and things like that, which are not 
there, but when you have those services, that actually hugely 
helps kids. So those are just some, off the top of my head, 
impacts.
    Mrs. Lee. Thank you. Speaking of wraparound services, you 
have publicly stated numerous times your support of the 
community schools strategy, especially in schools serving a 
high percentage of students living in poverty, which unites 
resources and assets of the school family community through 
strong partnerships facilitated by a coordinator and at the 
school site, which ensures students' success. As the former 
president of communities and schools of Nevada, I couldn't 
agree with you more.
    Your organization has directly supported the strategy in 
McDowell County, West Virginia, the poorest county in West 
Virginia. Can you tell me what you discovered there about the 
county's needs and how this community school strategy is an 
effective way to bring about collaboration needed to increase 
investment and resource alignment at our schools?
    Ms. Weingarten. So, first, I would invite any person on 
this panel to come visit the McDowell County schools with us. 
McDowell County, like some of the schools that some the other 
representatives have testified about, is right in the middle of 
Appalachia. It is former coal mining--it is a former coal 
mining county. It is the eighth poorest county in America. It 
is a county that has been afflicted by opioid addiction.
    After all sorts of other top-down ways of trying to create 
better outcomes for kids, the then Governor's wife, Gayle 
Manchin, asked us to take over the schools. We said: We don't 
believe in privatization. We could do, though, a public-private 
partnership.
    And so for the last 6 years the AFT has done a public-
private partnership with the McDowell County schools and 
others, and in those years, we have increased graduation rates 
over 12 percent. We have doubled the number of kids who are 
going to college. We have wrapped services around various 
schools. What we haven't been able to do is create jobs, but 
the other emotional and instructional impacts we have been able 
to change outcomes for kids, and so, when you see kids who used 
to actually look down, never talk to adults now talking about 
how they can use Lego to create code themselves, that is what I 
consider a success in schooling.
    Mrs. Lee. Thank you. I do agree. I mean, you know, some of 
our site coordinators are in closets in some of our schools, 
and it really comes down to having that personal relationship, 
and you need to have space to have personal relationships. So 
thank you very much.
    I yield back, Mr. Chairman.
    Chairman Scott. Thank you.
    My colleague from Virginia, Mr. Cline.
    Mr. Cline. Thank you, Mr. Chairman.
    I think the underlying theme in this hearing both sides can 
agree on is that education matters. Having access to good 
education at an early edge exponentially opens opportunities 
for students and can accelerate a student's trajectory. And 
while we consider solutions, we have to remember that just as 
each student is their own individual, each school and school 
division is as well, and painting them with broad brush and 
trying to push money and regulations that have no ability to be 
customized does a disservice, not only to those schools and 
those students but also to the taxpayers who are funding fixes 
that do not actually seek to fix the underlying problems.
    So I would ask Dr. Scafidi what inefficiencies do you see 
at the Federal level that can be eliminated to make room for 
state and local solutions?
    Mr. Scafidi. I would ask school superintendents in your 
state and school board chairs what Federal regulations are 
causing them to misallocate funds. Ask them directly, and I 
think they will talk to you for a long, long time.
    Mr. Cline. And we heard from your testimony about the top-
heavy administrative trend, the impact on students is felt 
through, among other things, larger class sizes because 
resources have to be allocated to that administrative burden. 
What other trends, what other impacts on students does this 
misallocation of resources have?
    Mr. Scafidi. Yes, it is an opportunity cost. I mean, money 
spent on A is money that can't be spent on B, and there are 
lots of worthy B's. So the question is, if what we are spending 
on doesn't seem to be moving the needle, we should reallocate 
those dollars, and that is going to differ in different 
communities. It is going to differ for different students. Like 
you were talking about customization, if certain kids need 
different things, and we shouldn't have one-size-fits-all from 
the Federal Government, from the state governments, or even 
within school districts or even within schools. So that is 
going change depending on the students' needs.
    Mr. Cline. In fact, can you see perhaps an inverse 
discouragement of states and local governments from addressing 
some problems with an allocation of Federal resources that 
might be inefficiently applied or inefficiently allocated that 
can disincentivize action at the Federal--at the state or local 
level?
    Mr. Scafidi. Yes. Two things. I do worry that if there was 
a big Federal infrastructure spending bill, that it might not 
hit where it is needed most in terms of schools. Second is yes. 
If states and school districts have Federal money coming in, 
that might take the pressure off from them using their own 
money for those items, and so they might choose not to spend as 
much, say, on infrastructure or what have you.
    Mr. Cline. Thank you.
    Mr. Chairman, I yield back.
    Chairman Scott. Thank you.
    The gentlelady from Florida Ms. Shalala.
    Ms. Shalala. Thank you, Mr. Chairman.
    I apologize for being late. We flew to Detroit, circled and 
flew back, so we never landed for our colleague's funeral.
    Ms. Weingarten, under the administration's proposal to 
drastically cut the education budget, dozens of schools in 
Miami-Dade County will lose close to $500,000 dollars in 
funding for afterschool programs, and teachers of the district 
could see more than $17 million in cuts for professional 
development.
    The administration has repeatedly said that eliminating 
funding for afterschool programs is correct due to lack of 
evidence that such programs improve student achievement. Can 
you comment on that and on the importance of afterschool 
programs? And I think the superintendent might want to comment 
as well. Thank you.
    Ms. Weingarten. So the administration--any time the 
administration says this, it says to me that they actually 
haven't spent a minute with children. So because--and so part 
of the administration talks about how important childcare is 
and wanting to give deductions for childcare, but then, when 
you do it in an organized way by having afterschool programs or 
summer programs where you both have instruction and custodial 
care, you get a double value for that funding, so why would 
they cut this off? This is money that, frankly, every wealthy 
parent will do, spend money in terms of afterschool care in 
terms of piano lessons, ballet lessons, but why don't we give 
this to those kids who can't afford it? This is what 
Representative Fudge was talking about earlier in terms of 
civil rights, civil rights responsibility.
    So there is a lot of research on this. The Aspen Institute 
just put research out on this. Others put research out. I don't 
know why they are saying that there isn't, but at the end of 
the day, this is the heart of what we think about schools. 
Schools should be centers of community. There should be 
wraparound services. They should be open for a long period of 
time, and so that parents can actually have both--can actually 
see that their kids are safe after school, as well as having 
great instructional opportunities after school and in summer 
school as well as during school.
    Ms. Shalala. Dr. Contreras?
    Ms. Contreras. Thank you. Proposed cuts to afterschool 
programs would have a significantly negative impact on our 
school district and the most vulnerable children in the 
district who participate in these programs. Many of these 
students who are participating are exposed to toxic stress, 
such as experiencing violence or witnessing violence, having 
parents who may be incarcerated, the death of a parent, poor 
academic outcomes. They have high levels of trauma and 
experience a great deal of adverse childhood experiences that 
negatively impact their overall well-being.
    We work very closely with our partners who provide these 
afterschool programs like Communities in Schools, and they 
align their programming to our academic program as well as 
provide other kinds of supports for these children and 
experiences. So cutting these programs would have a very 
negative impact.
    Ms. Shalala. Thank you.
    Ms. King?
    Ms. King. For poor students, afterschool programs allow 
them to escape the streets. And if children who cannot afford 
extra activities during school or after school, they have an 
opportunity to participate in something that will keep them 
safe, whether it is mentoring programs after school where they 
could learn, whether it is a possibility of playing an 
afterschool sport where they don't play it regularly inside of 
a school, but they could play it inside of an afterschool 
program or just teach them a technical trade. There are many 
things that are possible for children in afterschool programs, 
and so, for us, to cut a program would be detrimental to our 
students.
    Mr. Scafidi. I would prefer that we decide how much money 
we want to subsidize each child in this country. I would give 
bigger subsidies to low-income kids. Let they choose schools, 
and if they want afterschool programs, let me choose schools 
with afterschool programs. If they want schools with different 
afterschool programs, let them choose that. If they don't want 
afterschool programs and they want the money spent elsewhere, 
let them decide what is best for their children.
    Ms. Shalala. Are you actually talking about the children 
making those choices?
    Mr. Scafidi. No, the families.
    Ms. Shalala. All right.
    Mr. Chairman, I have one more question, if possible.
    Chairman Scott. Very briefly.
    Ms. Shalala. Ok. Fine. I yield back.
    Chairman Scott. Thank you. The gentleman from South Dakota, 
Mr. Johnson.
    Mr. Johnson. Thank you very much, Mr. Chairman.
    Mr. or Dr. Scafidi, I am trying to tease out the proper 
relationship between the state and the Federal Government here. 
I mean, I represent South Dakota, and in my state, as I suspect 
there are in many states, there is constitutional obligation 
for them to adequately fund education. Of course, I am glad 
that is in our state's constitution. It is critically 
important. So state policymakers understanding that 
constitutional obligation have established a special capital 
outlay tax levy so that South Dakota can avoid some of the 
tragic nightmares as the chairman opened today's discussion 
with highlighting. State policymakers also recently instituted 
a substantial tax increase, statewide tax increase to allow for 
a significant increase in teacher salaries, and the money was 
targeted to that effect. And I don't think anybody would say 
that the job is done, but I think most South Dakotans would 
acknowledge that there have been good attempts by policymakers 
to meet their constitutional obligations.
    So, as we talk about the creation of an additional, you 
know, $100 billion grant program to help out those who have not 
taken those prudent steps, I am concerned that we are rewarding 
bad behavior. Is my concern misplaced?
    Mr. Scafidi. It is similar to the question that the 
Representative from Virginia asked. Money is fungible. If the 
Federal Government gives states and school districts money, 
they can use money that they were dedicating for that purpose, 
and move it somewhere else. And so, yes, I mean, you are 
allowing states to do that and school districts to do that if 
you increase Federal funding for schools for any purpose.
    Mr. Johnson. Well, maybe even more of a concern long term, 
doesn't that send the message to states that if they lag in 
educational investment, if they don't make the uncomfortable 
decisions to properly invest in education, then, you know, 
perhaps the Federal Government will step up and maybe paper 
over their deficiencies?
    Mr. Scafidi. Yes.
    Mr. Johnson. So it seems to me that quite a number of 
people believe that our Federal Government is not properly 
funding Title I. It seems to me that there are quite a number 
of people who feel our Federal Government is not properly 
investing in IDEA, and lots of people, certainly in my state, 
think those things and also think we are not properly investing 
in impact aid, making good on our commitments that the Federal 
Government has promised.
    I look at this, and I think: Well this seems like a very 
Washington, DC, thing to do. Rather than coming together to try 
to figure out how we properly invest in our existing programs 
and in our existing obligations, we are instead going to create 
another program so that we can once again overpromise and 
underdeliver. Am I just being too cynical?
    Mr. Scafidi. No, it is just math. If you spend money here 
on any purpose, you can't spend that same money here. And that 
is true for any organization, any walk of life, government, 
nonprofit, for profit. That is just math.
    Mr. Johnson. Well, and maybe I might close, Mr. Chairman, 
by just noting that, in any given day, this town doesn't work 
very well, and if we continue to concentrate more and more of 
our educational leadership and our educational investment in 
this town, I have grave concerns that the American people and 
the American school children will be disappointed in our 
efforts and our investment.
    I yield back. Thank you.
    Chairman Scott. Thank you.
    The gentlelady from Minnesota, Ms. Omar.
    Ms. Omar. Thank you, chairman.
    Thank you all for taking the time. I know it has been a 
couple of hours, and we really appreciate your patience and 
your ability to help us have a critical conversation about 
investment, as my colleague from Connecticut said. This is an 
investment. This is an investment in our children, which is an 
investment in the future. I know that there is a clear 
correlation between graduating kids to getting higher income, 
which is future opportunity to tax, which, again, right, 
becomes future investment in the well-being of all of us.
    Dr. Contreras, thank you so much for sharing your story 
today. I have a set of questions for you that I would like a 
yes-or-no answer to. We are going to try to do this real quick. 
Have you heard of kids sitting in classrooms that are infested 
with mold or dripping with humidity?
    Ms. Contreras. Because of the--I am sorry. Because of the 
age of the facilities and of the HVAC systems, because the 
schools across the country are undermaintained, I think it is 
reasonable to say there is mold in classrooms across this 
country, significant cases.
    Ms. Omar. That is a yes?
    Ms. Contreras. Yes.
    Ms. Omar. Yes. So kids sitting in classrooms where there is 
mold, yes. Has there been an instance where the circuits blow 
when the teachers plug in a computer or a space heater that you 
have heard of?
    Ms. Contreras. Where they brought in a computer?
    Ms. Omar. Yes, plugged in a computer or space heater and--
    Ms. Contreras. Oh. Absolutely.
    Ms. Omar. Yes. All right. Do the security cameras work in 
your children's school?
    Ms. Contreras. No.
    Ms. Omar. Are the sidewalks at your children's school 
turning into gravel and their playgrounds deteriorating?
    Ms. Contreras. Are the sidewalks turning into gravel?
    Ms. Omar. Yes.
    Ms. Contreras. There are cases of that across the district.
    Ms. Omar. So yes?
    Ms. Contreras. Yes.
    Ms. Omar. Thank you. While your answers are very 
informative, they are also extremely alarming. Elevated levels 
of mold spores cause children with existing respiratory 
conditions, such as allergies or asthma, to have higher risk 
for health problems. Asthma attacks are triggered by damp 
buildings and mold growth.
    So my question to you is, what are the asthma rates in 
North Carolina compared to the national average?
    Ms. Contreras. You are asking why are the asthma rates 
higher?
    Ms. Omar. No, no. What are the rates? Do you know?
    Ms. Contreras. What are the asthma--in my school district, 
we have about 5,500 cases of asthma that we know about in the 
schools. Fifty-seven percent of those cases are in the poor 
schools.
    Ms. Omar. All right. Thank you. In North Carolina, the 
total is 9.2 percent. The national average is 9 percent, so we 
could clearly see there is a correlation, so I do appreciate 
you for helping us talk about that.
    Randi, I had a question for you. I know in your testimony, 
you cited the findings from a recent AFT report, A Decade of 
Neglect: Public Education Funding in the Aftermath of the Great 
Recession, that 25 states spent less on K-12 education in 2016 
than they did prior to the recession.
    Chronic underfunding explains why in 38 states the average 
teacher's salary is lower in 2018 than it was in 2009, why the 
people-teacher ratio was worse in 35 states in 2016 than in 
2008. I know my colleague earlier, from South Dakota, mentioned 
the constitutional obligations that exist, but I am a little 
baffled about this statistic that you lay out in that report.
    And so I wanted to ask you that, in the United States, do 
you think there is less value in education today than, let's 
say, in the previous 10 years, 20 years, 30 years, 40 years, 50 
years?
    Ms. Weingarten. So let me just say, I think that parents 
value public education and value education as much today as 
they ever have. I think this is a creation of choices that post 
every--virtually every state has an obligation, as South Dakota 
does, to its students. They say it differently, but every state 
basically has it.
    What we have seen over the course of time, particularly in 
the last 10 years, is that when the recession hit, there were 
lots of cuts, and there were many states that made different 
choices. And, frankly, some of the states that made the choices 
to actually fund education are now getting hit worse because of 
the cutting of SALT.
    And so you see a terrible situation that the Federal 
Government in the last--the tax bill has actually--is actually 
going to penalize the states that made more effort to fund 
education.
    Ms. Omar. I believe in every district in this country 
education is a top priority. Our children are a top priority. 
In every community you go into, people talk about how important 
teachers are. So it is time that we put our values first and 
invest in our teachers, invest in our students, and invest in a 
proper future that all Americans deserve. Thank you so much for 
your testimonys today.
    I yield back.
    Chairman Scott. Thank you.
    The gentleman from Idaho, Mr. Fulcher.
    Mr. Fulcher. Thank you, Mr. Chairman.
    And once again, committee, hang in there. You are getting 
close, all right.
    First of all, just an observation and then a question for 
Mr. Scafidi. It is not a whole lot different but a little bit 
from what Mr. Cline, Mr. Johnson had to say.
    In terms of an observation, this has been informative for 
me because the perspectives on these issues is so incredibly 
different on the legislative panel here.
    And, for example, the scenario that my colleague, 
Representative Hayes, described in Connecticut is pretty much 
diametrically opposed to what we experience in Idaho. But it is 
a totally different demographic. It is a totally different set 
of needs and circumstances, which just, I will share my own 
bias in that sense, absolutely convinces me that there has got 
to be local governance over education.
    But here is our situation in Idaho. We put a little bit 
over 50 percent of our general fund into K-12, another 12 or 13 
into higher ed. So that is about 63 percent of our general fund 
goes toward education in some fashion. Interestingly enough, 
with medical costs raising and expansions of Medicaid and those 
type of things, we have healthcare competing with education for 
government money. And that puts some really interesting 
stakeholders at each other's throat.
    But to further complicate things, we have nearly two-thirds 
of our land mass is federally owned, and we have a heavy 
dependence on property tax. So you take out two-thirds of the 
base and things have to get real creative in order to fund your 
education and, for that matter, anything else. So we have had 
to get creative. We have had to do different things.
    And so two things have kind of been the focus for us. No. 1 
is we have gotten away from the paradigm or we are trying to 
get away from the paradigm that throwing money at stuff helps. 
Yes, of course, you have got to have resources, but there is 
not an automatic connection between money and performance 
within the school system.
    The second thing is, we have got a tremendous amount of 
rural areas. School choice has been--we have had to do it. And 
it is--it has worked. And it is not fun in a lot of cases 
because it has inserted some competition, but the results have 
really helped.
    But you put up a slide right at the very beginning of your 
presentation. We see it. The administrative cost has gone up 
significantly.
    Mr. Cline talked about Federal administrative, and there 
has definitely been some burdens there. If we had our choice, 
we wouldn't want any Federal money. We would send the whole 
thing to Connecticut or to New Hampshire, and I am sure that 
they would be fine with that. We don't want the regulations, 
and a lot of us don't want the money at all.
    We have to do something because we don't have land mass to 
tax, but administrative cost is where I am trying to go with 
this diatribe here.
    Can you provide any counsel or any guidance on are there 
ways--given our circumstances where we have got to be very 
creative in how we fund things, have you seen examples or 
patterns of success in reducing administrative cost so we can 
focus on keeping that in the classroom and to the teachers?
    Mr. Scafidi. I have not. Forty-eight states, plus the 
District of Columbia, have had the staffing surge since 1992. 
Only Nevada and Arizona have not. Their student populations 
have grown dramatically, and their funding, you know, is just 
keeping up, so they are kind of roughly holding serve depending 
on the time period you look at.
    I think we need more transparency in how public education 
dollars are spent. We need more transparency on what the total 
amount spent per student is, but also historical.
    And finally, I think if we let educators choose how to run 
schools and we let parents choose which of those schools they 
think is best for their children, I think they would be 
choosing something very different in a lot of cases than what 
our kids are getting today.
    Mr. Fulcher. Thank you, Mr. Chairman. I yield back.
    Chairman Scott. Thank you.
    The gentleman from Pennsylvania, Mr. Thompson.
    Mr. Thompson. Chairman, thank you. Thank you for this 
hearing. Thanks for each member of the panel for being here. 
Important topic.
    I am a recovering school board member. Obviously, before 
that I was a dad. My oldest was just going into kindergarten 
when somebody asked me, there was a vacancy on the school 
board, and they told me it was only 1 hour a month. Yes. It was 
a pastor that told me that. That is when I figured out pastors 
lie sometimes. But I am so glad that I did that. My wife went 
along for 8 years after I had served our school board. And I 
really--a lot of--and I appreciate the conversation.
    You know me, I do think it comes to--my assessment, having 
spent so much time and been so passionate about education, 
there really is local leadership can make all the difference 
too, and state leadership, no doubt about it. States need to 
recognize that is a priority. Our school boards get their 
authority delegated through the state government. But at the 
local level, we need school board members, quite frankly, that 
hold our administrations accountable.
    I was honored to work with a school board member that 
actually was--my wife and I went to school there. He was our--
he taught problems of democracy. So if I mess up as a Member of 
Congress, I blame it on Mr. Fisher. But he was a great 
superintendent, you know. He had--he knew that we had to 
constantly invest in our schools, that you couldn't wait till 
things imploded and then expect somebody else to bail you out 
or do a huge tax increase all at once.
    You know, we kind of nibbled at it, and we kept--and it is 
a very rural school district. Geographically it is one of the 
largest in Pennsylvania. Enrollment is not that big, though. I 
don't know if they have 1,200 students today. It is probably 
less than that.
    And so I want to start with, Ms. King. First of all, thank 
you for your leadership of PTA. I really have enjoyed my 
relationship with the National PTA. We have worked together on 
a number of projects, including the family engagement center 
where--and I was pleased that, you know, we authorized that as 
part of ESSA, and it actually got appropriated for $10 million. 
Sometimes that is the hard part, getting the checks written. 
And we are at $10 million. And it just models really your 
engagement, which I so much appreciate.
    And so my thoughts are, I am just curious, with the family 
engagement centers, which is something I worked hard with PTA 
and we put it into ESSA, you know, do we see that? And it is so 
important to engage families. But I am also hoping that we 
raise up our next generation of school board members, you know, 
by engaging families there that a mom or dad then will step 
forward, you know, and just take it that next step. Are we 
seeing any evidence of that yet?
    Ms. King. Well, any parent resource center is going to have 
even just a tad bit of progress inside of them where they can 
get information to families to be engaged inside of their 
schools. As far as the 12 states or the 13 states that have 
these resources, these family engagement centers inside of 
their states, right now, we don't have any information that 
could tell us if they are being successful or not.
    But as a parent, anything that I can receive to empower me 
and engage me inside of my students' schools and communities is 
very important. So regardless if we don't have the data to tell 
us right now, I can say that any and everything that they are 
doing is empowering and engaging parents that are receiving 
information.
    Mr. Thompson. And we hope--and I hope that motivates some 
parents to take that next step too--
    Ms. King. Absolutely.
    Mr. Thompson [continuing]. in terms of that local 
governance. And thank you for what you have done.
    Dr. Scafidi, I want to talk a little--just briefly, because 
I don't have much time, about Title I funding. You know, we 
were--we successfully put into the Student Succeeds Act at 
least a requirement for the Department of Education to do a 
study. It is not--to the best of my knowledge, it hasn't been 
completed yet, at least the results haven't been shared. It was 
about the equity of the distribution of those funding. That is 
something I have always championed in terms of--the act was 
called the ACE Act, All Children are Equal. Because depending 
what zip code you lived in, there was more money per child to 
offset the impact of poverty.
    You know, is that something--in terms of Title I and the 
distribution, the equity of those funds, because right now, 
most of the money goes to large suburban districts that have 
poverty. There is not a zip code that doesn't have poverty, but 
the instance of poverty is smaller compared to, you know, rural 
and urban districts where it can be higher.
    Any thoughts on the rule if we actually get that Title I 
funding fixed so it is distributed equally?
    Mr. Scafidi. Just two comments. Does anyone know the lowest 
child poverty rate in this country since 1960, when that is? 
Right now. Second, Federal funding targeted to low-income 
students should go to low-income students. It should go where 
it is needed the most. And, you know, state departments of 
education need to, you know, make sure that is happening, and 
school districts within should work on that as well.
    Mr. Thompson. So hopefully the Department of Education will 
get that study done in a timely manner. It is already passed 
that point, I think, and--so that we can perhaps fix those, a 
distribution system for those Title I funds.
    Thank you, Chairman.
    Chairman Scott. Thank you.
    I now recognize myself for questions and start with Mr. 
Scafidi. You showed this chart. The purpose of statistics is to 
make a point, and we have said that the apparent point of this 
is that we are wasting all the money on other staff that could 
be spent somewhere else and what could be done with all that 
money. And I was surprised--initially surprised that it is 
about even-steven teachers and nonteachers. Then I thought 
about it, teacher aides are not included as teachers, right?
    Mr. Scafidi. Correct.
    Chairman Scott. Ok. So if you had a teacher aide in each 
classroom, you would be up to even-steven already. All 
classrooms don't have teachers. But because of Individuals with 
Disabilities Education Act, you will have a lot of teacher 
aides.
    Does this study include bus drivers?
    Mr. Scafidi. Bus drivers are counted as all other staff.
    Chairman Scott. Ok. So if you have a 30 classroom--30 
classrooms, about how many bus drivers do you think you would 
have?
    Mr. Scafidi. Thirty classrooms?
    Chairman Scott. Yes.
    Mr. Scafidi. Oh, it is--I guess, it depends on class size 
as well, but a bunch.
    Chairman Scott. A bunch, Ok. Cafeteria workers?
    Mr. Scafidi. Yes.
    Chairman Scott. A bunch?
    Mr. Scafidi. Yes.
    Chairman Scott. Custodians?
    Mr. Scafidi. Need them too.
    Chairman Scott. Secretaries in the front office?
    Mr. Scafidi. Need--well, they are more of a fixed cost, 
but, yes.
    Chairman Scott. Ok. But, I mean, the idea--you are getting 
pretty close to 50/50, and I think I understood you, in 
response to the gentlelady from Pennsylvania, saying you 
couldn't figure out who to cut. We haven't gotten to guidance 
counselors. We never have enough of those. And we haven't 
started talking about superintendent's office, and you would 
expect a superintendent staff doing research and 
administration.
    What would be a reasonable ratio?
    Mr. Scafidi. The point I was making with that chart was 
that is a sharp break with American public school history.
    Chairman Scott. Well, you didn't say anybody would be--when 
I grew up, they didn't have school buses for African American 
students, so, I mean, there is a lot of stuff that we are doing 
now that we weren't doing before.
    Mr. Scafidi. That is a great point.
    Chairman Scott. But you didn't indicate anybody that could 
be left off. And so the conclusion that all of this money is 
being wasted, isn't it an accurate conclusion that you ought to 
draw from the fact that it is 50/50? Isn't that right?
    Mr. Scafidi. To your first point, that is why I start my 
main analysis at 1992, to allow for school integration and 
integration of specialty needs students.
    Chairman Scott. Ok. But you said by the time you have 
gotten through teacher aides and bus drivers, you are almost to 
50/50 already.
    Mr. Scafidi. Well, if you are increasing students by 20 
percent--
    Chairman Scott. I am not talking about students. We are 
talking about what it is today.
    Mr. Scafidi. Yes. What I am saying is--
    Chairman Scott. You haven't indicated anybody in a normal 
school system, just in the school, 30--I mean, you don't have a 
football coach. I mean, there are a lot of things that would 
add up a nonsupervisory.
    Who would you cut out from the list that is there today?
    Mr. Scafidi. I actually got this email from the CFO of a 
large school district in Florida when he saw one of my reports. 
And he said, what should I do? And I said, do what they do in 
other walks of life. Look at every single expenditure and every 
single person and say, is that the best use of those funds? And 
if the state government or the Federal Government is making you 
spend the money that way or hire that person, ask them to let 
you out of that requirement.
    Chairman Scott. But the initial reaction that most people 
have is a 50/50 ratio is not--should not be shocking.
    Ms. Weingarten, is there anything shocking about a 50/50 
ratio of school employees?
    Ms. Weingarten. Not right now, given how much we do in 
terms of feeding kids and how much we do in terms of 
transportation, IDEA, and all the remedial kind of work and, 
frankly, all the testing kind of issues that have happened in 
schools.
    Chairman Scott. Ok. And, Mr. Scafidi, you have indicated 
that we are talking about math. If we are talking about school 
construction and you are trying to discuss salaries with the 
school board and they show you what they are spending on 
eliminating mold, on fixing leaky roofs, on air-conditioning, 
and things like that, how does that affect your ability to 
discuss teacher salaries?
    Mr. Scafidi. Different school districts, different 
individual schools have different needs.
    Chairman Scott. This is to Ms. Weingarten. Thank you.
    Mr. Scafidi. Oh, I am sorry.
    Chairman Scott. How does that affect your ability to 
discuss teacher salaries?
    Ms. Weingarten. The--if--what is happening is that every 
issue, the most important, immediate issue is the one that 
teachers always want fixed first. So when schools are leaky or 
when there is this much mold or this much respiratory illness, 
you are going to hear everyone, including teachers, say fix 
that first. And so having a pot of money that goes for 
infrastructure will then enable locals and others to negotiate 
teacher salary and teacher conditions. That is why your bill, 
sir, is so important.
    Chairman Scott. Thank you.
    Dr. Scafidi, I cut you off. I didn't mean to. Did you have 
a comment on that?
    Mr. Scafidi. No. I was just saying different schools have 
different needs, and, yes, they should address their highest 
priority.
    Chairman Scott. And if you are talking arithmetic, if you 
are spending a lot of money on fixing a leaky roof, you don't 
have the money for teacher salaries. Thank you.
    This ends the questioning. Dr. Foxx, do you have a closing 
comment?
    Ms. Foxx. Thank you. Thank you, Mr. Chairman. I do have 
some brief closing comments.
    And I want to begin by thanking the witnesses for being 
here today. It has been a long hearing, and I appreciate your 
patience in being here. And I want to thank the Chairman for 
his attention to the issues.
    This hearing is taking me back to my school board days. And 
even though that experience was one of the most formative in my 
life, a congressional hearing in Washington that sounds like a 
school board meeting is not necessarily a good thing.
    Teachers and students deserve the best working and learning 
environments money can buy. And if the money we are spending at 
every level of government isn't buying what students need, the 
answer isn't more money. On that, our distinguished Chairman 
and I are just going to have to continue to disagree. But that 
doesn't mean our work in this area is done. Far from it. We are 
all very proud of the bipartisan work that went into the Every 
Student Succeeds Act. That law is now at a crucial stage of 
implementation, particularly as Mr. Thompson pointed out.
    So I am committed, and I hope every member of this 
committee is committed to ensuring that law is funded at the 
levels we have already authorized and that it is implemented in 
the way we intended, and that is to serve students.
    So we have talked about ESSA. We have talked about 
opportunity zones. But we have barely touched in this hearing 
on the historic economic growth communities are experiencing 
and what that means for local revenues.
    And I very much appreciate what Dr. Scafidi said about the 
lowest rate of poverty for children right now in our country. 
You know there is more to Main Street than small businesses. 
There are an awful lot of schools on Main Street too. So, 
again, as Dr. Scafidi has pointed out, perhaps we need to spend 
more time thinking about how to reform the system to better use 
the resources we already have.
    I am certain that if we put our heads together, we could 
find a new idea that would actually work for students that just 
might enter the realm of fiscal responsibility.
    Thank you, Mr. Chairman. I yield back.
    Chairman Scott. Thank you.
    And I want to thank you again for--in your opening 
statement reminding everyone that Democrats have been 
advocating for more funding in education. We intend to continue 
that. And I appreciate your reminding everybody.
    As we have heard today, this is not a moment for 
incremental change or of small increases. Title I is at a third 
of its authorized amount. IDEA has never gotten anywhere close 
to the authorized amount. And conversations around local 
government ignore the reality that low-income communities are 
receiving nowhere near the funding they actually need, and the 
Federal Government has provided some in closing that gap.
    And we mentioned Every Student Succeeds Act. One of the 
things we put in there is that the additional funding should 
supplement, not supplant, what the school systems are doing. 
But the Federal role in education has traditionally been to 
kind of plug the gaps of areas where, in the normal course of 
things, don't happen, and that is why the school construction 
is one area that we have indicated. It is just not happening, 
and the Federal role can close that gap.
    We did the same thing with special ed, IDEA funds things 
that are not being funded today, Title I, addressing low-income 
students, bilingual education. There are a lot of areas that--
where we need to close the gap, and I think school construction 
is certainly one of them.
    I remind my colleagues that the record will be open for 14 
days for additional comments, and witnesses may be--you may 
receive questions, written questions. We would ask you to 
answer them as soon as possible. And if members have questions, 
that those be submitted within 7 days so that the witnesses can 
have adequate time to respond.
    If there is no further business, the committee is now 
adjourned.
    [Additional submissions by Dr. Scafidi follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    [Whereupon, at 1:44 p.m., the committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
